<html>
<title> - [H.A.S.C. No. 115-36] MILITARY ASSESSMENT OF THE SECURITY CHALLENGES IN THE INDO-ASIA-PACIFIC REGION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 115-36]

                       MILITARY ASSESSMENT OF THE

                         SECURITY CHALLENGES IN

                      THE INDO-ASIA-PACIFIC REGION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 26, 2017



[







GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 









                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-822                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
                  Kim Lehn, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Harris, ADM Harry B., Jr., USN, Commander, U.S. Pacific Command..     3

                                APPENDIX

Prepared Statements:

    Harris, ADM Harry B., Jr.....................................    53

Documents Submitted for the Record:

    Statement of GEN Vincent K. Brooks, USA, Commander, United 
      Nations Command; Republic of Korea and United States 
      Combined Forces Command; and United States Forces Korea....    91

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................   113
    Ms. Bordallo.................................................   114
    Mr. Byrne....................................................   116
    Mr. Franks...................................................   114
    Mr. Gaetz....................................................   116
    Mr. Gallagher................................................   115
    Mr. Langevin.................................................   113
    Mrs. Murphy..................................................   115
    Ms. Tsongas..................................................   115
    
    
    
MILITARY ASSESSMENT OF THE SECURITY CHALLENGES IN THE INDO-ASIA-PACIFIC 
                                 REGION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 26, 2017.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    No one needs reminding of the escalating tensions in the 
Asia-Pacific region. Recent weeks have witnessed intentionally 
provocative words and actions from the North Korean regime. We 
are all concerned that the decades of self-imposed isolation of 
North Korean leaders, and especially the cruel, erratic 
behavior of its current leader, make confrontation potentially 
more likely.
    In my view, we must work even more closely with our key 
allies, Japan and the Republic of Korea; we must continue to 
encourage China to help put North Korea on a different path; 
and we must increase our military presence and capability in 
the region. Enhanced missile defense is especially important.
    Of course, none of us wants another military conflict on 
the Korean Peninsula, but we must also remember the lessons of 
the past. As T.R. Fehrenbach wrote on the first page of his 
classic history on the Korean War, ``This Kind of War,'' quote, 
``Storm signals had been flying for more than 4 years, but the 
West did not prepare for trouble. It did not make ready because 
its peoples, in their heart of hearts, did not want to be 
prepared,'' end quote.
    Well, whether we want it or not, we have to be prepared.
    Of course, North Korea is not the only concern in the PACOM 
[Pacific Command] area. China continues to build islands in the 
South China Sea and to militarize them. The future direction of 
the Philippines is unclear, and we are moving toward a closer 
relationship with new and developing allies like Vietnam. All 
of this and more are on the plate of our PACOM commander, 
Admiral Harry Harris, whom we are pleased to welcome today.
    Before turning to him, I would yield to the distinguished 
ranking member, Mr. Smith, for any comments he would like to 
make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, Admiral Harris, for being here and for your 
leadership in the Pacific. And I agree with the chairman's 
comments about the importance of the region. U.S. presence in 
that region has never been more important. Our presence, 
working with our allies, can be a calming influence in what is 
a very unstable place, as the chairman described.
    And most disturbing, and most concerning, obviously, is 
North Korea. I would say, I don't think we are ignoring it this 
time. This is not like the first Korean war. I think there has 
been a great deal of attention paid to this problem in North 
Korea for several administrations. And I think that is helpful, 
because the number one biggest thing that we need is a clear 
deterrent to North Korea. We are not going to make Kim Jong-un 
a rational leader. We are not going to make North Korea 
anything other than a pariah state anytime soon. Nor are we 
going to stop them from having some military capability. We are 
aware that they have already developed a nuclear bomb.
    But the one thing we can do is make it clear that we stand 
with our allies in the region, with South Korea and Japan in 
particular, and we will be a credible deterrent to any military 
action in North Korea. I think that is the most important thing 
to do, is to make it clear to Kim Jong-un that if he does 
anything, we have the power and the will to respond and destroy 
him, because the only positive thing I can think about North 
Korea is that there is no evidence that their regime is 
suicidal. They don't want to be taken out. So we have to make 
sure we maintain a credible deterrent.
    And China fits into this as well. China wants increased 
influence in Asia, and on a certain level, that is 
understandable. They are a growing power. They want to have 
influence. What we need to do is to work with them to make sure 
that that influence is for positive instead of for ill, and 
North Korea is a very, very good place to start. They could be 
a lot more helpful than they have been being on calming those 
tensions, and it is in their best interests. They don't want 
war to break out in North Korea any more than anybody else 
does. It would have a far more devastating impact on their 
interests.
    So there are a lot of challenges. I will just close by 
saying, I think there are also a lot of opportunities. The 
chairman alluded to some of those. We have a lot of allies in 
the region, and a lot of those relationships are growing.
    I would also mention--well, I am not sure--India in South 
Asia is certainly an ally and one that could become even more 
so. Australia. There are a lot of countries in that part of the 
world that want to work with us and that give us an opportunity 
to work together to make that place and the world a more 
peaceful place.
    And with that, I look forward to the admiral's testimony. I 
thank him for his leadership and for his attendance today.
    The Chairman. Admiral, again, thank you for being with us. 
You are recognized for any comments you would like to make.

  STATEMENT OF ADM HARRY B. HARRIS, JR., USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Harris. Thank you, sir. Thank you Chairman 
Thornberry, Representative Smith, and distinguished members. It 
is an honor for me to appear again before this committee. There 
are many things to talk about since my last testimony 14 months 
ago.
    I do regret that I am not here with my testimony battle 
buddy, U.S. Forces Command Commander General Vince Brooks, but 
I think you will all agree that he is where he is needed most 
right now, on the Korean Peninsula. Unfortunately for all of 
you, that means my opening statement is going to be just a tad 
longer.
    Thank you, Mr. Chairman, for your reference to the T.R. 
Fehrenbach's book, ``This Kind of War,'' which is on the PACOM 
reading list.
    Mr. Chairman, I request that my written posture statement 
be submitted for the record.
    The Chairman. Admiral, without objection, it will be part 
of the record. I have to say, not to you, but to other folks, 
we got it about 9 o'clock last night, which means nobody has 
read it, as well as General Brooks' statement.
    So, again, not directed to you, but to all of the layers 
that such written statements have to go through, they need to 
be more timely for this committee if they are going to be 
relevant to our hearing. If it is just putting words down on 
paper, then fine. But we need to do better in the future. And I 
needed to say that, again not directed to you, but at those who 
seem to not have a sense of promptness.
    So without objection, so ordered. Please continue.
    Admiral Harris. Thanks.
    As the PACOM commander, I have the extraordinary privilege 
of leading approximately 375,000 soldiers, sailors, marines, 
coastguardsmen, airmen, and DOD [Department of Defense] 
civilians serving our Nation around half the globe. These 
dedicated patriots are really doing an amazing job, and thanks 
to them, America remains the security partner of choice in the 
region.
    That is important because I believe that America's future 
security and economic prosperity are indelibly linked to the 
Indo-Asia-Pacific region. And it is a region that is poised at 
a strategic nexus, where opportunity meets the four challenges 
of North Korea, China, Russia, and ISIS [Islamic State of Iraq 
and Syria].
    It is clear to me that ISIS is a threat that must be 
destroyed now. The main focus of our coalition's effort is 
rightfully in the Middle East and North Africa, but as we 
eliminate ISIS in these areas, some of those surviving fighters 
will likely repatriate to their home countries in the Indo-
Asia-Pacific. And what is worse, they will be radicalized and 
weaponized. So we must eradicate ISIS before it grows in the 
PACOM area of responsibility.
    Then there is North Korea, which remains the most immediate 
threat to the security of the United States and our allies in 
the Indo-Asia-Pacific. This week, North Korea threatened 
Australia with a nuclear strike, a powerful reminder to the 
entire international community that North Korea's missiles 
point in every direction.
    The only nation to have tested nuclear devices in this 
century, North Korea has vigorously pursued an aggressive 
weapons test schedule with more than 60 ballistic missile 
events in recent years. With every test, Kim Jong-un moves 
closer to his stated goal of a preemptive nuclear strike 
capability against American cities, and he is not afraid to 
fail in public.
    Defending our homeland is my top priority, so I must assume 
that Kim Jong-un's nuclear claims are true. I know his 
aspirations certainly are. And that should provide all of us a 
sense of urgency to ensure PACOM and U.S. Forces Korea are 
prepared to ``fight tonight'' with the best technology on the 
planet.
    That is why General Brooks and I are doing everything 
possible to defend the American homeland and our allies in the 
Republic of Korea [ROK] and Japan.
    That is why the ROK-U.S. alliance decided last July to 
deploy THAAD, that is the Terminal High Altitude Area Defense 
system, which will be operational in the coming days and able 
to better defend South Korea against the growing North Korea 
threat.
    That is why the USS Carl Vinson Carrier Strike Group is 
back on patrol in Northeast Asia. That is why we must continue 
to debut America's newest and best military platforms in the 
Indo-Asia-Pacific. That is why we continue to emphasize 
trilateral cooperation between Japan, South Korea, and the 
United States, a partnership with a purpose if there ever was 
one.
    And that is why we continue to call on China to exert its 
considerable economic influence to stop Pyongyang's 
unprecedented weapons testing. While recent actions by Beijing 
are encouraging and welcome, the fact remains that China is as 
responsible for where North Korea is today as North Korea 
itself.
    In confronting the reckless North Korean regime, it is 
critical that we are guided by a strong sense of resolve, both 
privately and publicly, both diplomatically and militarily. As 
President Trump and Secretary Mattis have made clear, all 
options are on the table. We want to bring Kim Jong-un to his 
senses, not to his knees.
    We are also challenged in the Indo-Asia-Pacific by an 
aggressive China and a revanchist Russia, neither of whom seem 
to respect the international agreements they have signed onto. 
For instance, the arbitral tribunal in The Hague ruled last 
year that China's so-called Nine-Dash Line claim is illegal 
under the Law of the Sea Convention. Despite being a signatory 
to the convention, China ignored this legally binding, peaceful 
arbitration.
    In fact, China continues a methodical strategy to control 
the South China Sea. I testified last year that China was 
militarizing this critical international waterway and the 
airspace above it by building air and naval bases on seven 
Chinese man-made islands in the disputed Spratlys.
    Despite subsequent Chinese assurances that they would not 
militarize these bases, today they now have facilities that 
support long-range weapons emplacements, fighter aircraft 
hangars, radar towers, and barracks for troops. China's 
militarization of the South China Sea is real.
    I am also not taking my eyes off Russia, which just last 
week flew bomber missions near Alaska on successive days for 
the first time since 2014. Russia continues to modernize its 
military and exercise its considerable conventional and nuclear 
forces in the Pacific.
    So despite the region's four significant challenges, since 
my last report to you, we have strengthened America's network 
of alliances and partnerships. Working with like-minded 
partners on shared security threats like North Korea and ISIS 
is a key component to our regional strategy. Our five bilateral 
defense treaty alliances anchor our joint force efforts in the 
Indo-Asia-Pacific.
    So I continue to rely on Australia for its advanced 
military capabilities across all domains and its leadership in 
global operations. As Vice President Pence and Secretary Mattis 
reaffirmed during recent trips to Northeast Asia, our alliance 
with South Korea remains steadfast and our alliance with Japan 
has never been stronger.
    Even with some turbulence this past year with the 
Philippines, I am pleased that we are proceeding with an 
enhanced defense cooperation agreement, and we are looking 
forward to conducting the Balikatan exercise with our Filipino 
allies next month.
    And this past February, I visited Thailand to reaffirm our 
enduring alliance and to communicate that we look forward to 
Thailand's reemergence as a flourishing democracy.
    We have also advanced our partnerships with regional powers 
like India and Indonesia, Malaysia, New Zealand, Singapore, Sri 
Lanka, Vietnam, and many others, all with a view toward 
reinforcing the rules-based security order that has helped 
underwrite peace and prosperity throughout the region for 
decades.
    But there is more work to be done. We must be ready to 
confront all challenges from a position of strength and with 
credible combat power. So I ask this committee to support 
continued investment to improve our military capabilities.
    I need weapon systems of increased lethality, precision, 
speed, and range that are networked and cost effective. And 
restricting ourselves with funding uncertainties reduces 
warfighting readiness, so I urge the Congress to repeal 
sequestration and to approve the proposed Defense Department 
budget.
    Finally, I would like to thank the Congress for proposing 
and supporting the Asia-Pacific Stability Initiative. This 
effort will reassure our regional partners and send a strong 
signal to potential adversaries of our persistent commitment to 
the region.
    As always, I thank Congress for your enduring support to 
the men and women of PACOM and to our families who care for us. 
Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Harris can be found in 
the Appendix on page 53.]
    The Chairman. Thank you, Admiral.
    Let me just remind all members that immediately upon the 
conclusion of this open hearing we will have a closed 
classified session with Admiral Harris, and it will happen 
immediately after this open hearing has concluded. I know when 
we have done this before there has been some confusion about 
time apparently. So whenever we finish here, it will be 
upstairs as we usually do.
    Admiral, I appreciate your very strong comments about 
budgets. Obviously, that is of key importance to us this week, 
and no one suffers the consequences of our failure to do our 
job than you do on the front lines.
    I want to ask my questions on defending against missiles, 
and actually I want to ask it in two different areas. You 
described some additional forces that we are putting into the 
region. I know there have been some press reports that say that 
somehow those forces are not able to defend against missiles 
launched from North Korea.
    Let me just ask, can American military forces in that 
region defend themselves against missiles launched from North 
Korea?
    Admiral Harris. Mr. Chairman, absolutely. There was an 
article that came out this morning from one of the outlets that 
suggested that the Carl Vinson Strike Group--and I think it is 
appropriate that we are talking about the Carl Vinson here in 
this room, the Carl Vinson Room--that the Carl Vinson Strike 
Group, with its incredible capability, to include two guided-
missile destroyers, the Wayne E. Meyer and the Michael Murphy, 
and the Lake Champlain cruiser, that somehow that that carrier 
strike group would not be able to defend itself against 
ballistic missiles. I believe that that article and articles 
like that are both misleading and they conflate apples and 
oranges, if you will.
    We have ballistic missile ships in the Sea of Japan, in the 
East Sea, that are capable of defending against ballistic 
missile attacks. North Korea does not have a ballistic missile 
antiship weapon that would threaten the Carl Vinson Strike 
Group.
    The weapons that North Korea would put against the Carl 
Vinson Strike Group are easily defended by the capabilities 
resident in that strike group. If it flies, it will die, if it 
is flying against the Carl Vinson Strike Group. So I am 
confident in that strike group's ability to not only defend 
itself, but to project power if that is the call that we 
received from the President and Secretary of Defense, sir.
    The Chairman. Okay. Well, then let me ask you more broadly 
about missile defense. We have some limited interceptors in 
Alaska and California. You mentioned some ships. We are, with 
the South Koreans, installing THAAD. So there are several 
pieces of this. But would you agree with my proposition that we 
probably need to amp up, to increase our missile defense 
capability in this region?
    Admiral Harris. I agree with you completely, Mr. Chairman. 
I believe that across the range of integrated air and missile 
defense, IAMD, that we can and need to do more. I believe that 
the interceptors that we have that defend our homeland directly 
in Alaska and California are critical. I have suggested that we 
consider putting interceptors in Hawaii that defend Hawaii 
directly and that we look at the defensive Hawaii radar to 
improve Hawaii's capability.
    I believe that the Flight IX DDGs, [guided-missile] 
destroyers that are coming online, are exactly what were needed 
in the ballistic missile defense space, if you will. And those 
are coming online, and I am grateful to the Congress for 
funding those.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Focusing on the chairman's question in terms of domestic 
defense, the missiles in Alaska and in California, what greater 
capability do we need in those missiles? Do we not have enough? 
Are we not confident that the ones we have are going to work? 
What capabilities is it that you are specifically focused on?
    Admiral Harris. Sir, I am going out of my level of--my 
range of expertise, because that is a question that NORAD 
[North American Aerospace Defense Command] is concerned more 
with, North American Air Defense Command. But I do believe that 
the numbers could be improved; in other words, we need more 
interceptors.
    And then I believe that for the defense of Hawaii, which is 
covered also by those interceptors, could stand strengthening 
itself, and that is in terms of the defensive Hawaii radar and 
potentially interceptors. So that is something we need to study 
much more deeply, but I think it certainly merits further 
discussion.
    We have one of our key systems that is deployed now in the 
Pacific, the SBX [Sea-Based X-Band] radar. It is an X-band 
radar that is on an old oil platform that is self-propelled 
with a golf ball-like antenna. We only have one of those, and 
we use it a lot, and, you know, we have to be concerned about 
the material condition of the platform itself, which is old, 
and the civilian crews that man it.
    Mr. Smith. What actions do you potentially see North Korea, 
Kim Jong-un, taking that are most concerning? And by that, I 
mean, putting aside for the moment what sort of capability they 
are building, what might they do offensively militarily? A few 
years back, I believe, they sank a South Korean vessel, they 
launched some missiles at a South Korean-controlled island. Do 
you see similar things that North Korea could do?
    I mean, I don't think any of us anticipate that they are 
just going to do a full-scale war because they know the cost of 
that, but are there places where they would try to push the 
envelope? And if so, what are your concerns about what they 
might do militarily against either our assets in the region or 
our allies?
    Admiral Harris. Sir, I am not as certain about this as you 
are, that North Korea won't do something precipitous, because 
the----
    Mr. Smith. Oh, I am not saying I am certain they are. I am 
asking what it would be.
    Admiral Harris. Well, I mean, it could be what we have seen 
before, I mean, which provocations like the sinking of the 
Cheonan or the attacks on YP-Do Island and the continuing 
evolution of their nuclear and their ballistic missile testing. 
So all of that.
    Mr. Smith. Just to be clear in the purpose of the question, 
I am not at all certain that they are not going to do 
something. I am confident, Admiral--I am not certain of 
anything at this point in my life, it is just the nature of the 
world--but I am reasonably confident that North Korea sees the 
threat of launching a full-on war against South Korea or Japan 
and the consequences of that.
    What I am worried about is that they will do these sort of 
little small things, thinking they can get away with it, and be 
wrong. And I am trying to get a greater clarity of what those 
small things are, which is why I cited those two previous 
examples.
    In the current environment, what are you worried about? Are 
they likely to, once again, you know, try to sink a South 
Korean ship? Are there disputed territories that they might try 
to take over? Where should we be looking for that small thing 
that could lead to the larger, much more dangerous war?
    Admiral Harris. First off, sir, I don't share your 
confidence that North Korea is not going to attack either South 
Korea or Japan or the United States or our territories or our 
States or parts of the United States once they have the 
capability.
    Mr. Smith. Unprovoked, you think----
    Admiral Harris. I won't say that they will, but I don't 
share your confidence that they won't, with absolute certainty 
that they won't do that.
    Mr. Smith. Not absolutely certain, just playing the 
percentages here. But go ahead.
    Admiral Harris. All right. But I believe that we have to 
look at North Korea as if Kim Jong-un will do what he says. 
Right now, there is probably a mismatch between KJU's rhetoric 
and his capability. He has threatened by name Manhattan, 
Washington, Colorado, Australia, Hawaii, and there is a 
capability gap probably in whether he can or not.
    Mr. Smith. And I am sorry to belabor this point, because I 
want to get onto some other people here, but he has threatened 
those things in the context of don't mess with us. Are you 
saying he simply threatened them as he is going to do it no 
matter what we do?
    Admiral Harris. Sir, I can't read his mind.
    Mr. Smith. Well, I am not asking you to read his mind.
    Admiral Harris. All I can do is understand what he says. 
And when he threatens the United States, then that is one 
level, but when he threatens the United States with a 
capability of realizing that threat, that is a different place. 
And when that happens, that is an inflection point and we are 
going to have to deal with that, I believe.
    Mr. Smith. I will let other folks get in here, and this is 
probably more for a classified setting, but understanding why 
he threatens the United States, I think, is enormously 
important. And again, granting your point that there is no 
certainty, there are still things that we can learn to 
understand why those threats are made, and it would definitely 
inform how we would respond to those threats. So we can do that 
more in a classified setting.
    I will yield back to the committee. Thank you.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Admiral, thank you for being here and for your 
service to our country.
    If this needs to wait until the classified session, please 
say so, but one of the needs you highlighted in your written 
statement was more munitions. We are running short of some 
critical munitions. Would you want to elaborate on that, or 
should we be more specific when we go up to the classified?
    Admiral Harris. Sure. I can elaborate on it in general here 
and then would ask that we reserve the details for the 
classified session.
    In general, we are short on things like small diameter 
bombs. You know, these are not exciting kinds of weapons. These 
are mundane sort of weapons. But they are absolutely critical 
to what we are trying to do, not only in North Korea--against 
North Korea--but also in the fights in the Middle East.
    And so we have a shortage of small diameter bombs 
throughout the inventory. So the stockpile of small diameter 
bombs that PACOM has, for example, we send them to the fight we 
are in, and rightfully so, to CENTCOM, to Central Command and 
AFRICOM [Africa Command].
    And so that is the fight we are in, and they need them. And 
so, you know, we send them there. And they use them, which is a 
good thing, but that means they are going to be short again, 
and we are going to send some more. So that is the fight we are 
in.
    We are also short in AAW, anti-air warfare weapons like 
AIM-9X and AIM-120Ds. These are weapons that our fighter 
aircraft use in air-to-air. I can use more of those.
    And in a bigger sense, the submarine issue itself. You 
know, I think our submarine numbers are low and getting 
smaller. And so the number of submarines, without going into 
the precise detail here, the Navy can only meet about 50 
percent of my stated requirement for attack submarines, these 
are SSNs, and that is based on a submarine force today of 52 
SSNs. By the end of the 2020s, that number is going to be down 
to 42.
    So the requirement I have is not going to get smaller, but 
the percentages against the total number of submarines we have 
is going to be exacerbated because of that. And so those are 
the kinds of munitions that I worry about. Also, you know, Mark 
48 torpedoes, and all of that.
    Mr. Lamborn. Thank you. And I hope we can address those 
issues seriously in the upcoming fiscal year NDAA [National 
Defense Authorization Act] and appropriations bills.
    And lastly, what kind of leverage does China have over 
North Korea? I don't think it is well understood how much. They 
don't, I think, admit to having a lot of leverage to outsiders. 
I think we could benefit from your insight.
    Admiral Harris. Sure. North Korea is China's only treaty 
ally. So that says one thing right there, right? So we have 
five bilateral defense treaties, they are all in the Indo-Asia-
Pacific, and two multilateral treaties, the NATO and the Rio 
Pact. China has North Korea. So they are obligated by treaty to 
have this kind of relationship with North Korea.
    Eighty percent of North Korea's economy is based on China, 
exports primarily. So 80 percent of their economy is based on 
China. So I believe that is a significant lever that China can 
employ, if it so chose to, against North Korea.
    Mr. Lamborn. Thank you. Appreciate your service once again. 
Mr. Chairman, I yield back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you. Thanks, Mr. Chairman.
    Admiral Harris, good to see you again. Thanks for helping 
us out last year. You were able to come talk to several of us 
last year, and I appreciate that.
    I want to explore a little bit more based on Mr. Lamborn's 
comments, but specific to on the military side, because we 
discussed sanctions a lot, we discussed the State Department 
role, Treasury's role with regards to North Korea.
    But I am wondering if you have any assessment about China's 
relationship with DPRK [Democratic People's Republic of Korea] 
on the military side and if there is influence or if you are 
aware of any influence the PLA [People's Liberation Army] can 
play on DPRK with regards to them pursuing both the more 
advanced nuclear weapons program and missile testing.
    Admiral Harris. Sir, I am not aware of any direct 
relationship between the People's Liberation Army and all its 
various subunits and the DPRK, New People's Army.
    Mr. Larsen. Yeah, okay. All right. Thanks.
    Related as well to our relationship or what we are trying 
to achieve on the peninsula, are you having or do you have any 
advice on whether or not you feel like you are in the position 
to sort of play every role, that is not just the Pacific 
commander but also somewhat of a diplomat's--diplomatic role? 
Because we have a Secretary of State position, but we don't 
have Deputy Secretaries of State, we don't have Assistant 
Secretaries of State. We are only now getting ambassadors 
without having anyone. So there is a gap in that policymaking 
structure and that outreach structure. Are you having to fill 
that gap?
    Admiral Harris. Thanks, sir. You know, I have been accused 
of many things, but never of being diplomatic. So----
    Mr. Larsen. All of us here too. Well, perhaps me.
    Admiral Harris. Part of the role of the combatant commander 
is to have relationships with not only our military 
counterparts, but also the leadership in the countries and the 
regions over which we exercise some degree of authority and 
influence. So I do have relationships with our partner nations, 
our allies in the region. But I think the State Department has 
a key role to play here, and I would defer in every case to 
Secretary Tillerson.
    Mr. Larsen. Yeah. And my point isn't that you want to fill 
that role as much as, for whatever reason, the Senate hasn't 
confirmed, the administration hasn't put up folks to fill in 
those spots.
    Admiral Harris. Sure.
    Mr. Larsen. And therefore you are left having to fill the 
gap with your----
    Admiral Harris. And so I am happy to do what I can in that 
regard. You know, just recently I was in Thailand and asked to 
deliver some messages about their return to democracy, which I 
was happy to do. And I think that is part and parcel of one of 
the roles of a geographic combatant commander in today's 
military structure.
    Mr. Larsen. Sure. It is also the role of ambassadors and 
Assistant Secretaries of State who aren't in place. So----
    Admiral Harris. Right.
    Mr. Larsen. And I don't know if you can answer this here, 
which is probably a prelude that you can't answer it here. 
Yeah, but I have to ask, right? There is the issue of the 
nuclear tests and the issues of the missile tests, both of 
them, obviously, both very concerning. But I guess, I would 
like to hear your assessment maybe a little later about is 
there one--is it more concerning to have missile tests or 
nuclear tests? What is the difference between a sixth nuclear 
test from North Korea based on the fifth nuclear test as 
opposed to advances in missile testing?
    Admiral Harris. So I view them both very seriously. And the 
difference between the sixth nuclear test and the fifth nuclear 
test is if we notice an improvement between the two. So as I 
said in my opening statement, KJU is not afraid to fail in 
public and he fails a lot. But I think Edison failed a thousand 
times before he got the light bulb to work. And so here we are, 
right?
    Mr. Larsen. Yeah.
    Admiral Harris. So he is not afraid to fail in public and 
he continues to try. And then he is experimenting not only 
with--``experiment'' is probably not the right word. He is 
developing missiles that have solid fuel propellants. And I can 
talk in the other hearing about the implications of that.
    So we have that weapons development going on, longer-range 
weapons going on. He has a ballistic missile submarine, an SSB. 
It is not a BN [ballistic missile, nuclear powered]; it is not 
nuclear powered, of course, but it is an SSB. That is 
troubling. And then he is doing his nuclear testing.
    So all of that, if he puts all of that together, 
miniaturizes the nuclear weapon, puts it on an ICBM 
[intercontinental ballistic missile] that he is testing over 
here, and then he figures out a way to have that thing survive 
reentry, then we have a serious problem on our hands, to go 
back to Congressman Smith's comments earlier.
    Mr. Larsen. Thanks. Your assessment is very important. I 
appreciate it. Thank you.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Admiral, could you talk about the value of joint military 
exercises with South Korea? It seems that whenever we do them, 
it seems to excite North Korea. Is there an advantage in terms 
of doing those?
    Admiral Harris. Yeah, absolutely, Congressman. I would say 
it is critical, right? So we are obliged to defend South Korea 
by treaty, and so South Korea is one of those treaty partners. 
They have a very strong and capable military, as we do. But if 
we are going to defend them, if we are going to fight with them 
on the peninsula, then we have to be able to integrate with 
their military, we have to be able to work with their military, 
we have to understand their military, and vice versa.
    So we share a lot of common systems, you know, 
antisubmarine warfare aircraft, Aegis weapon system on their 
destroyers and our destroyers and cruisers, and on and on and 
on. And so we have to be able to operate together in peacetime 
so that we can operate together in wartime, if it comes to 
that.
    So we are at an armistice now on the peninsula, and that is 
what we have to do. We have to maintain our degree of 
readiness, not only unilateral readiness, but also our combined 
and joint readiness with our brothers and sisters in the ROK 
military.
    Mr. Coffman. To what extent would you say that there was 
pressure by the Chinese Government on South Korea to put 
pressure on them not to accept the THAAD system?
    Admiral Harris. There is clear pressure from China, 
economic pressure, against companies like Lotte Corporation, 
which owns the place that the THAAD is going to go into, 
Samsung, and other companies, big corporations in South Korea.
    And so I find it preposterous that China would try to 
influence South Korea to not get a weapon system that is 
completely defensive against the very country that is allied 
with China. So if China wants to do something constructive, 
then they ought to focus less, in my opinion, on South Korea's 
defensive preparations and focus instead more on North Korea's 
offensive preparations.
    And I think we are in a good place, I am reasonably 
optimistic now that China is having an influence and they are 
working in the right direction with regards to North Korea, 
thanks to the efforts by our President and theirs.
    Mr. Coffman. Do you think that China holds all the cards in 
any kind of negotiated settlement to defuse tensions on the 
Korean Peninsula?
    Admiral Harris. Sir, I don't think they hold all the cards, 
but they hold a good number of them and important cards. 
Because regardless of whether I think that China's influence on 
North Korea is waning, it still is the country that has the 
most influence on North Korea during peacetime. And I think if 
it came to a harder place, then we would exert the most 
influence. But in peacetime, China has the most influence on 
North Korea.
    Mr. Coffman. Am I correct that the South Korean or, I 
guess, Republic of Korea security forces have taken operational 
control of joint military operations and that we do not have 
forces on the Demilitarized Zone [DMZ]?
    Admiral Harris. No, sir. The OPCON transfer, the transfer 
of operational control, that is now pushed to the right, and it 
is a conditions-based transfer. So the ROK does not have 
operational control of our forces. But General Brooks, who is 
the U.S. Forces Commander, is also the United Nations Commander 
and the CFC, the Combined Forces Commander. So he is actually 
the commander of all of the forces on the peninsula, including 
the Korean forces, in terms of war.
    Mr. Coffman. Is that a goal though, operational control?
    Admiral Harris. Ultimately, OPCON transfer is a goal, but 
it has to be conditions based. You know, it has to be when they 
are ready to do it and all the other conditions are met.
    Mr. Coffman. Okay. Can you speak to whether or not we 
have--if you can speak in this setting--but do we have 
conventional forces on the Demilitarized Zone itself?
    Admiral Harris. We have conventional forces along the 
Demilitarized Zone just south of that, and I can go into more 
detail in the other session.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Admiral Harris. Thank you, sir.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And thank you, Admiral Harris. I enjoyed meeting you on a 
CODEL [congressional delegation] recently to Hawaii.
    On Guam, Admiral, you know we are directly and uniquely 
impacted by national security and foreign policy decisions in 
the region. So we seek to understand what if any strategy this 
administration has for the Indo-Asia-Pacific.
    We are in the process of realigning marines from Okinawa 
throughout the Pacific, which, as you noted in your testimony, 
is critical for modernizing our force posture in the region. So 
could you briefly discuss the military necessity, particularly 
the movements of marines to Guam, for which the Japanese are 
contributing over one-third of the cost. You highlighted 
funding levels, but I am especially interested in not just the 
financial but also the political capital the Government of 
Japan has expended for its part.
    Admiral Harris. Thanks, Congresswoman.
    The whole issue of moving marines from Okinawa elsewhere is 
important to our alliance relationship with Japan. And so the 
movement involves--today we have roughly 20,000 or so marines 
in Okinawa, and ultimately we want to get to a point around 
10,000 or 11,000 or so. And part of that is to move about 4,000 
marines to Guam, about 3,000 or so to Hawaii, and about 1,300 
or so to Australia. So that is sort of the rotation.
    We are looking at, as you know, the movement of the bulk of 
the marines to Guam would occur in the 2024 to 2028 timeframe 
and then to Hawaii after that. And we are already rotating 
forces through Australia now.
    Japan has invested a lot in this. This is all about, for 
everyone else's benefit, to reducing the footprint in Okinawa 
and also closing Futenma. So the Futenma air base is an air 
base in an incredibly populated area, and so the Japanese have 
asked us to move that air base. It is a key base of operations 
for us in that region.
    So we told the Japanese back in the 1990s that we would do 
that, but their obligations under the treaty is to provide us a 
place from which to operate. Our obligations under the treaty 
is to protect Japan. And so their obligation is to provide a 
place. They selected a place called Henoko, right outside of 
Camp Schwab, and that is kind of where we are.
    So ultimately, when Henoko is ready, we will shut down 
Futenma and move to Henoko. But until then, we have to operate 
somewhere, and Futenma is where we are operating from. And then 
part of that agreement was to remove a large number of forces 
from Okinawa, and that is where the relocation to Guam, Hawaii, 
and so on.
    Ms. Bordallo. So I think, Admiral, what I am trying to get 
is everything is on target, is that correct, pretty much?
    Admiral Harris. I believe things are on target. I think 
Henoko is delayed a little bit. I don't know the amount. You 
know, that is something that we would have to ask the Japanese 
about. But they have said that they would have Henoko ready by 
2022. I testified last year that I thought that that was in 
question. So now I am going to have to defer to the Japanese 
for a better year estimate.
    Ms. Bordallo. Well, we have waited a long time for this, so 
we want it to continue. And we do have a visa problem on Guam 
now, a labor shortage, so I am working on that.
    But what importance would you give to the fifth SSN in 
Guam? Related, would your forces be better enabled by robust 
ship repair facilities in the Western Pacific? Just a yes or a 
no.
    Admiral Harris. On the SSN in Guam, I am a big fan of 
moving the fifth SSN to Guam. It is a Navy decision, and I am 
in consultations with Admiral Richardson and the Navy on it. 
But I believe it is important that we move that capability 
forward because it gets it closer to the fight.
    On the ship repair facility, I simply don't know. I would 
defer to the Pacific Fleet commander--it is a Navy issue--on 
whether they need a ship repair facility in Guam or if the 
facilities in Hawaii and eastward are adequate.
    Ms. Bordallo. Okay. I have one last question, Admiral. As 
you know, a decade ago, PACOM issued a UON [urgent operational 
need] for significantly upgraded offensive antiship weapons to 
keep pace with evolving threats, and Congress has funded a 
rapid acquisition effort to field this capability.
    With significant munition shortfalls, I presume the 
requirements continue to grow. Would that be accurate? And can 
you discuss the risks we take with the shortfalls in standoff 
weapons like the Long Range Anti-Ship Missile? If you could 
just briefly.
    Admiral Harris. Ma'am, sure. I believe the UON is as 
relevant today as it was when PACOM--one of my predecessors 
issued it, I think it was Admiral Willard--issued it a decade 
ago. I am pleased and grateful to the Congress for funding 
weapon systems like Long Range Anti-Ship Missiles, LRASM, 
putting money against advanced Tomahawk and SM-6 in the 
antiship mode. So these are helpful, and this is good, and I am 
grateful for that.
    Ms. Bordallo. Thank you, Admiral. And thank you, Mr. 
Chairman. I yield back.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Admiral, how many of China's land-based cruise and 
ballistic missiles have a range of 500 to 5,500 kilometers?
    Admiral Harris. I believe that number is about 95 percent. 
In other words, 95 percent of China's land-based cruise and 
ballistic missiles, 95 percent fall in that range and would be 
precluded by the Intermediate [Range] Nuclear Forces Treaty, 
INF Treaty, if they were a signatory to that treaty, which they 
are not.
    Mr. Rogers. How many land-based cruise and ballistic 
missiles of that range do you have in your PACOM arsenal?
    Admiral Harris. Sir, I have none in that range in my 
arsenal, nor does the U.S. military writ large have that, 
because we are a signatory to INF and we follow those rules 
religiously.
    Mr. Rogers. In your opinion, should we consider 
renegotiation of the INF Treaty or withdrawing, declaring 
Russia in material breach of the INF Treaty?
    Admiral Harris. Sir, that is a policy question that I know 
is being looked at, and I believe that there are aspects of the 
INF Treaty which are salutary, the nuclear part of it that 
reduces the nuclear weapons and all of that.
    I am concerned that on the conventional side, both in terms 
of ballistic missiles and cruise missiles, we are being taken 
to the cleaners by countries that are not signatories to the 
INF because there is no expectation, right, we should have no 
expectation that China follow the INF because they are not a 
signatory to it.
    On the other hand, General Selva has recently testified 
that Russia has violated the conventional part of the INF. And 
so the INF Treaty is just us and Russia and a few of the other 
Soviet successor states, but it is really about us and Russia. 
And so Russia doesn't adhere to it as strictly as we do.
    China and other countries, Iran, for example, don't have an 
obligation to follow it. And they are proceeding apace in their 
weapons development. The DF-21, DF-26, for example, both would 
be precluded by INF. And then here we are without a weapon in 
this 500- to 5,500-kilometer range, a critical range to be able 
to conduct warfare in the Indo-Asia-Pacific.
    Mr. Rogers. So my understanding is that you are saying that 
we are basically unilaterally disarming when it comes to that 
capability?
    Admiral Harris. I would say we are unilaterally not being 
creative in developing our weapons.
    Mr. Rogers. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, Admiral Harris. Good to see you again. I 
just want to follow up on your comments to Mr. Lamborn 
regarding the need for submarines to fill the requirements that 
you have out there.
    Again, you mentioned we have a fleet today of 52 going down 
to 41 in the 2020s. Your testimony, on page 16, actually 
tallied the number of submarines between Russia, North Korea, 
and China today, which is 160, which, again, I think helps sort 
of frame your comments even more sharply.
    And last December, Secretary Mabus came out with his Force 
Structure Assessment, which called, again, for an increase in 
the fleet size to 355. Mr. Wittman and I just got back a report 
from CBO [Congressional Budget Office] a few days ago that 
talked again about the sort of fiscal challenge of trying to 
achieve that goal.
    If you had to prioritize, again, in terms of fleet 
architecture about as we find our way forward to hit that 
target, what end of the fleet would you really want to 
emphasize in terms of new platforms to be available?
    Admiral Harris. Right. So I am not a fleet guy anymore. I 
am a joint guy. But from a joint combatant commander 
perspective, I need more submarines. And the Navy's plan to 
build up to 355 ships, 66 of those are submarines. And right 
now we are at 52 going to 42, and that is completely in the 
wrong direction.
    And if we go from 52 to 42 to 66, that would make me a 
happy combatant commander, because I would think then that in 
that number of 66 that I would be able to meet more of the 
requirements than I am able to have met now. So really right 
now I am at 50 percent of my stated requirement. It will be 
worse, it will be exacerbated when we go down to 42, but if we 
go up to 66, that will be better.
    But that number is an important number because it 
highlights the shortfalls that we are currently in with regards 
to not only submarines, but other assets. So in that 355-ship 
number is a 12th aircraft carrier and all the ships that go 
with that. I think these are really important as we move out to 
face the threats that are going to confront us beyond those 
that already are extant now.
    And while we are doing this, China and Russia are 
significantly improving their submarine capabilities and their 
antisubmarine warfare capabilities. So today, I mean, today 
there is no comparison. I mean, it would be like comparing, I 
don't know, a Model T to a Corvette. But there is no comparison 
between a U.S. Virginia-class submarine and anything that China 
can field.
    But that is not the point. The point is that in 20 years or 
so, that China will work hard to close that technological gap. 
And if we don't continue to resource our submarine fleets and 
our military in general, then they will be able to close that 
gap, and that would put us, I think, in a bad place.
    Mr. Courtney. Another point in your testimony on page 10 
was, again, talking about Russia's more aggressive posture in 
the Asia-Pacific. Again, the Pacific Fleet now is a new 
development in terms of, again, this whole question of your 
ability to meet requirements, isn't that correct, that they are 
now back in business?
    Admiral Harris. Yes, sir, it is.
    Mr. Courtney. Thank you.
    Last week I had an opportunity to go out and visit one of 
our Seawolf-class subs, which were part of the pivot to Asia, 
the USS Connecticut, believe it or not. But I raise that point 
because that sub actually was supposed to be in for repair 
availability for--it was a big job. It was supposed to be about 
2 years. It ended up being 4 years. And, again, it is because 
of this whole question of the Navy's strain in terms of the 
public shipyards.
    I mean, again, that is another part of this story in terms 
of your ability to get your requirements met when, again, the 
pipeline in terms of repairs is just not moving fast enough. 
And, again, that obviously was a pretty key platform that you 
could use right now, I am assuming.
    Admiral Harris. It is. And so the numbers are affected. The 
numbers that I get, as opposed to the numbers that I have asked 
for in terms of submarines, are driven not only by the number 
of submarines--that is the easy answer, 52 spread out across 
all the combatant commanders--but it is also driven by 
availability. And the availability is driven by the industrial 
base and its capacity to repair the submarines that are going 
in for overhauls and all of that.
    Mr. Courtney. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. Good to see you 
again, Admiral.
    Admiral Harris. Yes, ma'am.
    Mrs. Hartzler. I would like to hone in the questions on 
China some more and also readiness. So China has been investing 
in several next-generation military technologies, including 
hypersonic missiles, directed-energy weapons, autonomous 
weapons systems, and space-based weapons. Now, are you 
concerned about the progress China is making in its development 
of these technologies, and how can the United States maintain 
its edge?
    Admiral Harris. Without going into classified, I will 
answer yes to all of that. I am very concerned about their 
developments in these systems, particularly hypersonics. But 
what we can do is to develop our own hypersonic weapons and 
improve our defenses against theirs.
    One of the problems we have, though, is this INF Treaty 
issue before us. So hypersonics that could match the Chinese 
weapons would be precluded by INF. So we are precluded from 
developing land-based weapons that can match the Chinese land-
based weapons by treaty.
    Mrs. Hartzler. Okay. Yeah, that is an excellent point. I am 
glad my colleague brought that up. We need to address that for 
sure.
    What is your assessment of China's use of hybrid warfare 
methods, and how does China influence or otherwise affect our 
Asian partners and our allies?
    Admiral Harris. Yeah. So I believe that China is a learning 
machine. They are a learning organism. And they have watched 
the Russian example in Ukraine, and they are applying aspects 
of that in the South China Sea, particularly with their 
maritime militia, which is a compilation of fishing boats, 
merchant ships, and other small ships and entities that roam 
throughout the South China Sea.
    And they are using these in lieu of grey hull military 
ships. And I think they are having some effect with them, and 
we need to continue to monitor that activity and to call them 
on the carpet when they do something that would be counter to 
good seamanship and the like.
    Mrs. Hartzler. In addition to their economic strategy, 
which I am very concerned about too, very shrewd on their part, 
but I want to move to readiness. So we have heard from the 
service chiefs and vice service chiefs of all the military 
branches, and there are a few common themes, such as: Due to 
our inability to modernize our forces our adversaries have 
closed the capability gap we once enjoyed.
    They also shared: The quality and quantity of training 
opportunities have declined significantly over the past several 
years, which has decreased our readiness. And they have talked 
about how our forces are undermanned.
    So I am wondering how these factors have affected you in 
PACOM.
    Admiral Harris. So today I believe I can meet the strategy 
in terms of fight tonight forces. And so that involves--you 
know, principally we are worried about North Korea. So my 
forces are ready to fight tonight if called on to do that.
    The readiness shortfalls and the challenges that the 
services have and how that affect me is on follow-on forces. So 
the fight tonight literally is tonight. But a lot of those 
forces, though, come from the mainland United States. And so 
that is an issue.
    And then the follow-on forces, the surge forces, how good 
is our airlift, how good is our sealift, how can we get all 
this stuff out there. And I worry about that quite a bit. And I 
think the lack of a budget is going to hurt us if we don't get 
one.
    Mrs. Hartzler. Hopefully we will address that this week.
    Now, you have talked a little bit about the South China 
Sea, what they are doing. China's attempts at land reclamation 
expansion in that area, coupled with its growing military 
capabilities, as you know, are causing tension across the 
globe. If these tensions continue to rise to the point where 
military confrontation is necessary, are you confident in both 
the quality and quantity of forces you will receive from the 
services? And will you have enough weapons and assets with 
access to the threat in order to reduce the risk to our forces 
and maximize their capability?
    Admiral Harris. So I can get into more details in the 
classified hearing on that. But I am concerned about China's 
bases in the South China Sea, because that complicates the 
anti-access/area denial problem that we face if we are called 
upon to conduct operations against China.
    Mrs. Hartzler. Great. I will look forward to visiting with 
you in the classified setting.
    I yield back. Thank you.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman. Admiral, thank you 
very much for joining us here today.
    I was the gentleman who asked Vice Chairman Selva about the 
Intermediate Nuclear Forces Treaty, the treaty that President 
Reagan signed in the mid-1980s with the Soviet Union. So I 
wanted to start with that following on my colleagues' 
questions.
    What has been our response to Russia's violation of the 
treaty?
    Admiral Harris. Sir, I don't know what our----
    Mr. Moulton. I am not aware of a response either.
    Admiral Harris. I know that General Selva brought it up.
    Mr. Moulton. Yeah. I am not aware of any response either.
    Typically, when one party to a treaty violates the treaty, 
what do you try to do? You try to hold that party accountable. 
So there are other options than simply withdrawing from the 
treaty ourselves. Is that right?
    Admiral Harris. Right.
    Mr. Moulton. Have we thought about having such a treaty 
with China as well?
    Admiral Harris. I have not, and I am not aware of 
discussions that would bring China into either the existing INF 
Treaty or a separate treaty with China. You know, when the INF 
Treaty was signed back in 1985, it was a bilateral treaty in a 
bipolar world. Now we are in a multipolar world with threats 
that we weren't thinking about in 1985.
    Mr. Moulton. I agree. I agree. I think President Reagan 
would be pretty shocked to hear that our initial response to a 
violation--to Russia's violation of the treaty would be simply 
to abrogate the treaty ourselves.
    But I want to go back to North Korea. The Trump 
administration has said that, quote, ``All options are on the 
table,'' regarding a preemptive military strike. What range of 
options do we have?
    Admiral Harris. We have the full range of options, whether 
it is continued negotiations, continued----
    Mr. Moulton. I am sorry, Admiral, specifically military 
options. I mean, what effective military options would we have 
to counter the North Korean threat with a preemptive strike?
    Admiral Harris. The full range of options on the military 
side, whether it is presence operations, pressure operations, 
or kinetic operations.
    Mr. Moulton. I am asking specifically about a preemptive 
strike.
    Admiral Harris. Okay.
    Mr. Moulton. Not about continued pressure, not diplomatic 
pressure, not the presence of our submarines or carriers. But 
what sorts of preemptive strike options do we have against the 
North Koreans?
    Admiral Harris. I will just say, sir, we have a lot of 
preemptive options, but I couldn't begin to talk about them in 
this hearing.
    Mr. Moulton. And what would the typical response, do you 
think, be from the North Koreans to such a preemptive strike?
    Admiral Harris. It depends on the level of the preemptive 
strike, sir.
    Mr. Moulton. Would we be able to take out their artillery 
aimed at Seoul?
    Admiral Harris. I believe that we would have the ability to 
affect North Korea's military calculus in preemptive strikes 
depending on the type of strike. But I am really treading on 
ground that I am----
    Mr. Moulton. I am not asking you to get into anything 
classified. There has been a lot of unclassified material about 
this.
    Admiral Harris. Right. But nothing from me on this.
    Mr. Moulton. But my concern, Admiral, is that when you look 
at the options that we have in terms of a preemptive strike, 
there is not a lot we can do about North Korea's artillery. And 
this has been well discussed in the open press, that a lot of 
South Koreans and Americans in South Korea might die if that 
option were exercised.
    Would you agree with that assessment?
    Admiral Harris. I will say that what we are faced with is 
that on one hand and a lot more Koreans and Japanese and 
Americans dying if North Korea achieves its nuclear aims and 
does what KJU has said it is going to do.
    Mr. Moulton. I agree with you. I agree with you. But just 
to be clear, in that scenario, a lot of South Koreans and 
Americans in South Korea would be in trouble.
    Admiral Harris. Sure.
    Mr. Moulton. Are you concerned about a conflict between 
North and South Korea escalating into a conflict between United 
States and China? Is that a risk?
    Admiral Harris. It is a risk. I think it is a manageable 
risk, and I think that we would work hard to manage that risk.
    Mr. Moulton. How would we manage that risk?
    Admiral Harris. I think communications with China, a 
relationship with China. I think the relationship between 
President Trump and President Xi is positive and encouraging, 
and I think that will go a long way to ameliorating the risk.
    Mr. Moulton. So you are basing that off their recent 
meeting.
    Admiral Harris. No, not just the recent meeting. I am 
basing it on the idea that if we have a positive, productive 
relationship with China, then----
    Mr. Moulton. I agree. The Trump administration's idea 
throughout the campaign and until that meeting was to have an 
unproductive relationship with China, to call him a currency 
manipulator, et cetera.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Admiral, thank you very much for your being here 
today. And 2 years ago, I had the extraordinary opportunity of 
visiting with you in Hawaii, and I saw firsthand of your 
capabilities in the briefings that you provided us. Your 
rapport with your personnel, it was just very, very inspiring. 
And your personal history and background is equally so 
inspiring to the American people, and I want to thank you for 
your service. I particularly say that as the grateful dad of a 
lieutenant commander in the U.S. Navy today, serving in 
Beaufort, South Carolina, hopefully maybe in PACOM sometime in 
the future.
    As we face these issues, North Korea continues to be a 
significant threat to the security of the American people and 
our allies in the region. Can you explain how important the 
recent deployment of the THAAD system is to the people of South 
Korea?
    Admiral Harris. Yeah, I think it is very important. I mean, 
this system is a defensive system that will help protect South 
Korea from ballistic missile attacks from North Korea. It is a 
purely defensive system. It is aimed north, not east--or not 
west, rather. It poses no threat to China. And it is designed 
to protect our Korean allies and our American service men and 
women and their families and businessmen and others who live 
and work in Korea.
    Mr. Wilson. And I want you to be aware that Congress voted 
2 weeks ago overwhelmingly, 398 to 3, bipartisan obviously, to 
support the THAAD deployment and your service and back you up. 
So you have obviously incredible bipartisan support here in 
Congress.
    As North Korea continues to develop and test ballistic 
missile technology, can you explain who is supporting these 
activities with resources? Specifically, is there Iranian 
collaboration?
    Admiral Harris. Sir, I don't know if there is Iranian 
collaboration or not, but I will find out and get back to you 
on that or I will have an answer by the classified hearing.
    Mr. Wilson. Thank you very much.
    And, Admiral, the President has recently stated that all 
options are on the table concerning North Korea, as correctly 
cited by Congressman Seth Moulton just now. As chairman of the 
Readiness Subcommittee, I am concerned of noted shortages in 
funding, required munitions, and backlog maintenance on our 
ships and aircraft.
    What readiness concerns have you seen in the Pacific 
Command?
    Admiral Harris. Yeah, just what you have said, sir. I am 
concerned about munitions shortfalls, maintenance backlogs, and 
development of weapons that would keep us ahead of our 
adversaries, principally China and Russia but that would have 
an effect in North Korea.
    Mr. Wilson. And are there specific shortfalls in munitions 
that we can help address here?
    Admiral Harris. There are. Small diameter bombs; AIM-9X and 
AIM-120D, AAW, anti-air warfare weapons; and Mark 48 torpedoes.
    Mr. Wilson. Thank you very much.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman. And thank you, 
Admiral Harris, for coming here today.
    The administration has sent the USS Michigan to South Korea 
as a show of force and continues to escalate its rhetoric 
against the current leader of North Korea. There is no question 
as to the significant threat North Korea poses in the region, 
especially as it continues to pursue its missile and nuclear 
ambition.
    However, I am extremely concerned about the provocation and 
direction this administration is taking to address the North 
Korea threat. It seems the United States has not developed a 
coherent national strategy when it comes to North Korea, and 
yet we are deploying military assets, increasing tensions, and 
considering military options against North Korea.
    When dealing with an unpredictable regime, empty rhetoric 
can be dangerous. And I think this committee would be 
interested to hear why there was so much confusion as to where 
the USS Carl Vinson was deployed to or not.
    Admiral Harris, what is the feasibility of the U.S. taking 
on North Korea without China becoming involved? What type of 
coalition effort would be required to take military action 
against North Korea?
    Denuclearization, at this point, seems unachievable unless 
the U.S. wages an outright war against North Korea or North 
Korea undergoes a regime change. What other options, other than 
denuclearization, are you and the administration looking at in 
order to limit the North Korean threat?
    Quite the question.
    Admiral Harris. Sir, thanks for your--that is quite a 
number of questions. I will try to get through them.
    First is, I disagree that we lack a strategy on North 
Korea, sir. I believe we do have a strategy. I believe the 
President has that strategy. And my job is to provide options, 
and, as a military commander, my job is to provide military 
options. And that is what I do; that is what I have done.
    With regard to the Carl Vinson, that is my fault on the 
confusion, and I will take the hit for it. So I made the 
decision to pull the Carl Vinson out of Singapore, truncate the 
exercise that it was going to do south of Singapore, cancel the 
support visit to Australia, and then proceed north. And where I 
failed was to communicate that adequately to the press and the 
media. So that is all on me.
    But we have done exactly that, right? So we pulled out of 
Singapore, truncated the exercise, canceled the port visit, and 
then moved it north. And today it sits in the Philippine Sea, 
just east of Okinawa, in striking range and power projection 
range of North Korea if called upon to do that. And then, in a 
few days, I expect it will continue to move north.
    You started your questions by talking about the Michigan. 
The USS Michigan, an SSGN, a guided-missile, nuclear-powered 
submarine, is in fact in Busan, Korea, now as a show of 
solidarity with our Korean allies. It will be there for a few 
days, and then it will leave port and be operating in the area. 
This is a show of solidarity with our South Korean allies and a 
flexible deterrent show of force to North Korea, should they 
consider using force against South Korea.
    Now, with regard to coalition effort, I believe our biggest 
coalition partner in this effort, if it comes to some kinetic 
operation on the peninsula, is Korea itself, naturally, South 
Korea. And then, of course, Japan and our other friends, 
allies, and partners in the region, I feel, would support the 
United States as we support our treaty ally of South Korea.
    Mr. Carbajal. I guess the only question I continue to have 
is, it has been difficult to discern that strategy. And I am 
hoping at some point we can hear a little bit more, whether it 
be in a classified hearing or not. But, to date, I don't have 
the confidence to feel good about the statement you just made, 
that we do have a coherent strategy.
    Admiral Harris. Yes, sir.
    Mr. Carbajal. Mr. Chair, I yield back.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. Admiral, I am over 
here.
    Admiral Harris. Thank you, sir.
    Mr. Byrne. It is good to see you again.
    Before I get started, I just wanted to tell you there were 
15 of us that met 2 weeks ago with General Brooks in Seoul, and 
I think we all came away from there understanding the 
seriousness of the situation, but we had 100 percent confidence 
in his leadership and the troops he has under his command and 
where he is going with that. And I just wanted to say that 
after having an hour and a half with him that day.
    Last year, you and I visited in Hawaii at the RIMPAC [Rim 
of the Pacific] exercise. And the, I think, 2 hours you spent 
with the eight of us that were there, I just have to tell you, 
that was a tour de force. Rarely in my lifetime have I been in 
the room with somebody who had such complete command over 
everything that you were talking to us about over an incredibly 
broad and diverse theater. So I wanted to compliment you on 
that.
    You and I had a little bit of a colloquy about the littoral 
combat ship [LCS], and you were talking to me about how it 
helped you increase and distribute your lethality in the 
theater. And you reminisced about the days when you were a 
young naval commander and you were dealing with the Soviet 
corvettes, the little, smaller vessels that the Soviets had 
that they could put a missile on. And you were very good about 
going over with me and the others there about having that small 
combatant out there, particularly now that we can put Harpoon 
missiles on them and add to what you are doing.
    Two months ago, I was in Singapore, and I noticed that you 
had an LCS and some EPFs [expeditionary fast transports] there. 
Last week, Admiral Gabrielson stated, ``We're ready and excited 
to welcome multiple LCSs to the region and put them to work, 
and there's no shortage of meaningful work for these ships.''
    Can you discuss the impact of having the LCSs and the EPFs 
in the theater?
    Admiral Harris. Yes, sir. So I have gone on record as being 
a fan of the littoral combat ship in both its principal forms, 
and I am a fan of it. I would be a bigger fan of the up-gunned, 
if you will, LCSs which----
    Mr. Byrne. The frigate?
    Admiral Harris. The frigate--thanks to the Congress, we are 
going to get. And I think it is important.
    I want to acknowledge our great friend in Singapore, or 
Singapore as our great friend, that is, who allow us to 
rotationally deploy these ships to their country. So I am 
grateful for that.
    I think the Navy and Vice Admiral Rowden at SURFPAC, 
Surface Forces [Pacific], are on the right track with this 
theory of distributed lethality. And I think the LCS has a role 
to play in that. So, again, I am a fan of LCS.
    The story I told was, when I was a tactical action officer 
on the USS Saratoga back in the eighties, one of my jobs was to 
keep track of all these little ships that the Soviets had--the 
Nanuchkas, Tarantuls, and Osa II boats. These are small, small 
patrol boats. But the reason we had to keep track of them, the 
reason we were worried about them, the reason the captain and 
the admiral were on my case all the time--``Where are these 
guys?''--is because each one carried a Styx missile or more. So 
they carried a missile that could threaten the carrier and the 
carrier strike group, punching far, far above their weight.
    And I think that LCS should do that. And I want the Chinese 
every day to worry about where the LCS is, just like I used to 
worry about where the Osas, the Nanuchkas, the Tarantuls were 
back in the eighties.
    Mr. Byrne. Well, I think the proposal from the Navy, or at 
least the way they are working on it today, both variants of 
LCS upgraded to be a frigate would have multiple missile tubes 
on them and would be able to respond the way that you said.
    So just to make sure I am understanding what you are 
saying, you want them to have the sort of missile capability 
that the Navy is trying to get to with the new frigate design.
    Admiral Harris. Absolutely. And I am agnostic on the type 
of missile. You know, that is a service decision. But I want 
them to be equipped with missiles that can sink ships.
    Mr. Byrne. And having multiple numbers of those, not just--
we only have the Coronado out there right now--but having more 
than one, having several out there that you can place around 
wherever you want, that adds to what the Chinese or any other 
adversary has to worry about with the placement of our fleet 
out there.
    Admiral Harris. Right. On our combat side, it does it, 
absolutely. And on the everyday, noncombat peace operations, 
humanitarian assistance, the whole range of operations and 
missions that the Navy has in the region, the LCS adds to that.
    Mr. Byrne. Well, I really appreciate your comments on that. 
But, once again, your leadership, General Brooks' leadership, I 
have a high level of confidence that we have the right people 
and the right things in place to do what we have to do if 
something bad happens there. And I appreciate your leadership 
and his leadership.
    And I yield back.
    The Chairman. Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman.
    Admiral, thank you so much for your testimony today, and 
thank you for your service to our country.
    You said that the Carl Vinson is now in the Philippine Sea. 
God forbid you had to fly from the Carl Vinson to North Korea, 
how long a flight time is that?
    Admiral Harris. About 2 hours. Well within their 
capability.
    Mr. Suozzi. And there wouldn't be any need for refueling to 
get there and back?
    Admiral Harris. There would be, but a modern carrier strike 
group has its own refuelers.
    Mr. Suozzi. On the----
    Admiral Harris. On the ship.
    Mr. Suozzi. Okay.
    When you talked about the basic munitions like small 
diameter bombs, is that a problem throughout the Navy, or is 
that a problem for just for the Pacific Command?
    Admiral Harris. No, it is not a Navy problem, it is a joint 
force problem, and it is a shortage across the joint force. And 
so, you know, we are sending them out to CENTCOM, Central 
Command, now because they are needed in the fight in the Middle 
East. So, you know, I have an allocation, other combatant 
commanders have an allocation----
    Mr. Suozzi. So you are sharing your allocation----
    Admiral Harris. I am.
    Mr. Suozzi [continuing]. With Central Command.
    Admiral Harris. Right. Except they don't share them back, 
right? Hopefully they don't share them back, because hopefully 
they use them. And so then they will need more.
    Mr. Suozzi. So how would I go about finding out, like, what 
is the status of that, what is the inventory overall and where 
they are and that kind of thing?
    Admiral Harris. You just ask the question, and I will get 
back to you, sir.
    Mr. Suozzi. Well, I am asking that question.
    Admiral Harris. You just did, and I will get back to you.
    Mr. Suozzi. And what were the other two weapons that you 
mentioned before that were your priorities, other than the 
small diameter bombs?
    Admiral Harris. Anti-air warfare missiles, AAW missiles, 
AIM-9X, AIM-120D. These go on our fighter aircraft. And Mark 48 
torpedoes.
    Mr. Suozzi. So I would like to--I am trying to develop--I 
am new here, I have only been here for 100 days, and I am 
trying to develop an inventory of all the different equipment 
that we have and understand where things are and how much we 
use of what----
    Admiral Harris. Yes, sir. I will get that to you.
    [The information referred to was not available at the time 
of printing.]
    Mr. Suozzi. Okay. Thank you so much.
    Admiral Harris. Yes, sir.
    The Chairman. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman. And thank you, Admiral 
Harris, for being here.
    One, just again, it is a joint problem, the number of 
munitions and the lackage of stockpile that we have in order to 
comply with all contingencies that we would have at this time. 
Is that correct, Admiral Harris, in your opinion?
    And then I want to go back just a little bit to the leader 
of North Korea. And to the ranking member's questions, like 
you, I don't share the same confidence that he understands the 
cost-benefit analysis of any actions towards the United States. 
And I thank you for being on the front lines, you and all our 
service members for being on the front lines every day.
    Do you know of any source, other than, I guess, maybe 
China, but does he--do you think based on the news sources and 
the people around him that are his advisers, do you think he 
gets any advice that he cannot totally annihilate the United 
States? Do you think there is any source that he gets that 
from?
    Admiral Harris. I do not. In his circle of advisers, you 
know, they pretty much, you know, follow his line or he pretty 
much eliminates the source of distrust or questioning.
    Mr. Kelly. I was with some friends when I was on the 
district work period, and I mentioned--I said, you know, some 
people think that God controls their actions or directs their 
actions or that they are in link with God's actions. It is 
almost like he is a little more than that; he may even think he 
is God, based on the number of advisers. And if you in any way 
go against what he says is right, he has you killed, whether 
you be his brother, his uncle, anyone else. Would that be 
correct?
    Admiral Harris. That would be correct, sir.
    Mr. Kelly. The number of ships--and I know--but how does 
that impact PACOM directly, in an unclassified area, the lack 
of submarines and other surface ships?
    Admiral Harris. Well, so, as I have said before, the Navy 
fulfills about 50 percent of my stated submarine needs. And so 
the submarine force, in an unclassified way, for example, deal 
with the Russian submarine threat, the Chinese submarine 
threat, and they are also involved in surveillance missions and 
other kinds of missions, themselves, directly for Pacific 
Fleet, for the fleet, if you will.
    And so, because of the numbers of Chinese submarines that 
are underway and the types of submarines, and the same with the 
Russians, you know, I need to be able to keep track of those 
submarines in every way that I can. And by not having the 
number of submarines that I need to do that, then I have to 
make risk calculations and risk-based decisions on which ones 
to maybe not keep track of or what surveillance missions we are 
not going to do because I don't have the submarine to do that, 
I need it to do something else.
    So those kinds of calculations are being done in real time 
every day, not only by me and by the PACOM staff but by Admiral 
Swift and the Pacific Fleet staff and on down the chain. So 
that is just one example.
    You know, right now, the Carl Vinson is on deployment. I 
extended the Carl Vinson by a month in order to ensure that we 
have a carrier available should the President need one, because 
the carrier that is based in the Western Pacific, the Ronald 
Reagan, is in maintenance right now. And so, you know, I 
wouldn't have a carrier there right now were it not for the 
ability to extend the Carl Vinson.
    So, you know, that is just two examples for you right 
there.
    Mr. Kelly. And when I first got into the military many, 
many years ago, we always had a five-paragraph operations 
order. And, lately, you know, 10 years ago, we started adding 
risk. And that is a risk that we as Congress can source to 
reduce some of that risk, but it is a--we ought to be doing the 
same risk assessment. If we don't source this, then you take 
risk, and that means the lives and material and equipment and 
treasure.
    Would that be correct, Admiral Harris?
    Admiral Harris. Absolutely correct.
    Mr. Kelly. And then final question. We hear quite often 
about the funding at the Joint Chief level, the CRs and the 
impacts of CRs at the joint level. But at your level, as a 
commander, the PACOM commander, how significant is it to have 
funding that you can plan on to make sure we have the right 
strategic plans in place?
    Admiral Harris. Sir, it is very significant. And, you know, 
just in broad brush because of time, if we don't get a budget 
or if we go into another CR, the services are going to start to 
enact some draconian measures in order to balance their books, 
right?
    And that includes things like they are going to cut back on 
carrier air wing training, which means that the pilots that 
deploy won't be ready to deploy. The Air Force is going to cut 
back over 100,000 flight hours across the Air Force. The Army 
will cut back exercises, important exercises like Pacific 
Pathways and things like that, in order to balance those books. 
And that will have an effect on the combatant commanders 
directly and on me directly in the Pacific.
    Mr. Kelly. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And, Admiral Harris, 
thank you very much for your service and for being with us 
today.
    I wanted to ask you--and this is somewhat in line with some 
of the questions that people have been asking partly because I 
think it is what the public right now is looking for. In your 
testimony, you said that your goal is to bring Kim Jong-un to 
his senses but not bring him to his knees. And in light of 
that, what are you and General Brooks doing to reduce tensions 
on the peninsula specifically and prevent what some people are 
concerned could be an overreaction on our part?
    Admiral Harris. So I believe the best way to reduce 
tensions on the Korean Peninsula is to provide credible combat 
power 24/7. So if you are a weak country or you have a weak 
military, then I think that encourages adventurism and puts us 
in a place with countries like North Korea that we wouldn't 
want to be in if we had a choice.
    So we have a choice. And General Brooks and I provide those 
options up the chain to the President, but, within our own 
areas of authority, we provide that credible combat power to 
our allies in Japan and Korea.
    So bringing the Vinson up is one example of that. Bringing 
the USS Michigan, a guided-missile nuclear submarine, into 
Busan is another example of that. These B-1 and B-52 flights 
that we fly throughout the area are another example of credible 
combat power, which I believe has the effect of ameliorating 
Kim Jong-un's worst impulses.
    Mrs. Davis. Uh-huh. Is there anything else you could share 
with us regarding your own work, essentially, with the White 
House through some of these escalations?
    Admiral Harris. No, ma'am. I would be hesitant to share 
with you discussions that I have had with the National Command 
Authority.
    Mrs. Davis. Thank you, sir.
    I also wanted to turn to the budget discussions that we 
have been having here, which are critically important. In fact, 
in your testimony, you listed budget uncertainty as a 
noteworthy challenge, next to China, Russia, territorial 
disputes, North Korea, and ISIS.
    And when General Milley was here just a few weeks ago, he 
talked about the fact that what he views here in Congress 
actually is professional malpractice if we don't pass this 
budget and get on with this important work. I suspect you 
probably share that, that sentiment in some way?
    Admiral Harris. I wouldn't be quite as forthcoming as 
General Milley is, ma'am.
    Mrs. Davis. Uh-huh. But it is a real critical need. And----
    Admiral Harris. Well, I will say that the need is there, 
without criticizing the Congress by name. But the need----
    Mrs. Davis. But sometimes that is appropriate, right? Okay.
    Admiral Harris. Please note I am silent on that. The need, 
though, is real.
    Mrs. Davis. Uh-huh.
    Admiral Harris. I believe we must have a budget. And I 
believe we must repeal sequestration.
    Mrs. Davis. Yeah. And I----
    Admiral Harris. To do otherwise is going to put us in a 
very bad place.
    And those signals I was talking about earlier, the signals 
that I talked about earlier with North Korea and all of that, 
KJU will interpret that in a bad way.
    Mrs. Davis. Yeah. One of the things you just said in 
response to my colleague is that you think that commanders are 
going to start taking some draconian measures.
    Admiral Harris. I think the services are--when I said 
commanders, it is the services, because they have to man, 
train, and equip the military for their use of the joint force. 
But when I say the services, I mean the Navy, the Army, the Air 
Force, and the Marine Corps.
    Mrs. Davis. Yeah. Is there something that you see, and 
maybe even in some trends, that we continue to do that, in 
fact, given some other technologies or changes, that we don't 
need to do any longer?
    Admiral Harris. I would have to think about that a little 
bit. I think that, in terms of R&D, research and development, 
that we are, in fact, looking at new ways of doing new 
business. And I think the Third Offset, for example, is getting 
at some of that. DIUx [Defense Innovation Unit Experimental]--I 
don't know what that stands for, but it sounds cool--the DIUx 
is another way to try to jump-start some ideas. And I think 
these are all helpful.
    So I would say that the Department of Defense is looking at 
innovation as a means to overcome some of the challenges that 
we face from other----
    Mrs. Davis. Could I ask you, just briefly, because time is 
almost up, is the fact that we have struggled so much to have 
an audit out of the Pentagon, is that an issue for you?
    Admiral Harris. No, ma'am, it is not for me.
    Mrs. Davis. So no audit is not a problem, from your 
perspective.
    Admiral Harris. No, I don't want to imply that, but if 
there is a problem with an audit in the Pentagon, that doesn't 
affect me, as a combatant commander, directly.
    Mrs. Davis. Thank you, sir.
    Admiral Harris. Yes, ma'am.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    And, Admiral Harris, thank you for your leadership and what 
you are doing and your diplomacy and tact towards Congress. I 
thank you for that. But I would say it would be professional 
malpractice if we don't get a budget passed and take care of 
our military right.
    I wanted to get your professional opinion for the committee 
here, just how hard it is and challenging to defend South 
Korea, with the location of Seoul and the number of artillery 
that North Korea has. Could you just go into a little detail, 
just the challenges that we are going to face if Kim Jong-un 
becomes aggressive?
    Admiral Harris. Yeah, it is a very dramatic challenge. So 
Seoul is, I believe, the most densely populated city on the 
planet, 25 million people in a relatively small area, within 
artillery range of the DMZ and the heights north of the DMZ, 
where Kim Jong-un has a vast array of rocket forces and 
artillery. So it does pose a significant challenge.
    Mr. Bacon. And it is an extraordinarily hard challenge to 
counter.
    Admiral Harris. Right.
    Mr. Bacon. Do you think we have enough long-range strike 
aircraft, air-to-ground, air-to-air, close enough that deters 
Kim Jong-un? Or do we need to add additional permanent presence 
in Japan, Guam, so forth? I know we have rotating forces, but 
is it enough to make clear to Kim Jong-un that he will lose if 
he crosses the line?
    Admiral Harris. Yeah, I believe that the military forces we 
have are sending the right signal to Kim Jong-un.
    So we routinely fly B-1 and B-52 flights. Just 2 days ago, 
we had an operation where we had a ship in the East Sea, Sea of 
Japan, and on the West Sea with the Koreans. The Japanese were 
involved, and we had a B-52 fly through there. The Japanese 
handed it off to the Koreans, who then escorted the bomber 
through the Korean Peninsula to the other side.
    So this is a pretty complicated operation, and it 
demonstrated to our allies and friends and also to Kim Jong-un 
that we have this capability, that we can bring these forces to 
bear from all around the Pacific to focus on him if need be.
    So I am pleased with the array of forces that we have, in 
terms of ``fight tonight'' forces. But as I answered a previous 
question, I am concerned about follow-on forces----
    Mr. Bacon. Right.
    Admiral Harris [continuing]. And the means to get them 
there, all of which is affected by readiness, which is affected 
by the budget, and on and on.
    Mr. Bacon. It seems to me part of this is a whole-of-
government response. Are we doing enough in the non-military 
instruments of power? For example, in the nineties, we used 
banking sanctions that I thought were very effective. Are there 
other things we should be doing to help put pressure on North 
Korea?
    Admiral Harris. Yeah, sir, I believe that it is a whole-of-
government effort and a whole-of-government effort would be 
required. And I believe that different parts of our government 
are involved in the North Korean problem set.
    Mr. Bacon. Should we go back to the banking sanctions? It 
seems like, to me, that worked.
    Admiral Harris. Sir, I am not smart on banking sanctions.
    Mr. Bacon. Okay. One last thing. Thinking of Kim Jong-un, 
he is the grandson of a dictator, son of a dictator. He has 
been surrounded by people his whole life that tell him what he 
wants to hear. So I sort of question his rational decision 
making on this, but how would you interpret his strategic 
objectives? What is he trying pursue? What are his goals with 
his behavior?
    Admiral Harris. So I believe there is an element of respect 
that he is going after. I believe he wants to be considered a 
nuclear state, a nuclear-capable state. I believe he seeks 
unification of the Korean Peninsula to his favor. And I believe 
that he seeks to have that dominance in that part of the world.
    Mr. Bacon. Thank you very much. Mr. Chairman, I appreciate 
the time. I yield back.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. Admiral Harris, 
aloha. Welcome.
    Admiral Harris. Aloha.
    Ms. Gabbard. I have just returned back to Washington 
yesterday after holding a whole string of town hall meetings 
across the State of Hawaii on each island. And the question and 
concern raised about North Korea's threat, yes, to the United 
States but specifically to Hawaii, was a constant question and 
theme that came up on each of our islands there.
    Given Hawaii is home to your headquarters, how do you 
characterize the threat of North Korea specifically to Hawaii? 
And how confident are you in our current BMD [ballistic missile 
defense] capabilities against that threat?
    Admiral Harris. Yeah. Thanks, Congresswoman.
    I am concerned about it. I believe that our ballistic 
missile architecture is sufficient to protect Hawaii today, but 
it can be overwhelmed. And, you know, if Kim Jong-un or someone 
else launched ballistic missiles, ICBMs, against the United 
States, then, you know, someone would have to make the decision 
on which ones to take out or not. So that is a difficult 
decision.
    I think that we would be better served--my personal opinion 
is that we would be better served with a defensive Hawaii radar 
and interceptors in Hawaii. I know that that is being 
discussed, and I don't want to get ahead of those discussions. 
But I think we ought to study it, for sure, and then make that 
decision as a department on what the best way forward is.
    But Kim Jong-un is clearly in a position to threaten Hawaii 
today, in my opinion.
    Ms. Gabbard. Thank you. And in what you are suggesting, 
having a radar as well as interceptors in Hawaii specifically, 
how confident are you in that technology that is being 
discussed in being able to effectively intercept an ICBM coming 
towards us?
    Admiral Harris. It depends on the systems. You know, we are 
getting ahead of--I am getting ahead of ourselves just a little 
bit because, you know, I am suggesting that we study the basing 
of interceptors in Hawaii. The type of interceptors, you know, 
that is the next level of detail, which I am not part of that 
discussion.
    I think that the defensive Hawaii radar is coming. I think 
the interceptors piece is something that is yet to be 
determined. But I believe we should certainly look at it, and I 
think we would be somehow not doing our job if we didn't look 
at it.
    Ms. Gabbard. And could you expand a little bit on what you 
mentioned on the current BMD capability being sufficient but if 
overwhelmed would create a situation where difficult choices 
would be made? Could you maybe just lay out a scenario?
    Admiral Harris. Yeah. In this hearing room, I will just say 
that we have X number of interceptors that can shoot down Y 
number of targets, and if the opposition fired Y plus one, then 
that is at least one that will get through.
    Ms. Gabbard. Thank you. Recently, I think about a month 
ago, the Acting Assistant Secretary of State made a statement 
basically saying that the pivot to Asia is effectively over. 
What is your take on that statement, and how have you seen the 
practical implications of that?
    Admiral Harris. Yeah. So I believe that the phrase was--
well, you know, the term ``pivot'' and the term ``rebalance,'' 
those are just words that describe what America is doing. And I 
believe that what we are doing is continuing to place an 
importance on the Indo-Asia-Pacific region. I believe that 
Secretary Mattis' first trip was to the region. The Vice 
President, I was with him when he returned from the region 
through Hawaii.
    I believe that these send the right signal to our friends, 
allies, and partners and others that the United States remains 
steadfast in our placing of the Indo-Asia-Pacific region as the 
most important region for America's future.
    I think the President's relationships with Prime Minister 
Abe in Japan, with President Xi in China, and all of that are 
positive. And it demonstrates to the folks out there that we do 
value what is happening in the Indo-Asia-Pacific.
    Now, even though the terms, quote/unquote, ``pivot'' or 
``rebalance'' or something may be out of vogue, I think our 
Nation remains focused on the region, as we should.
    Ms. Gabbard. Yeah. It is what is actually happening that 
matters.
    I appreciate your leadership through your long tenure of 
service based in Hawaii but really always bringing to light the 
challenges as well as the opportunities that we face there in 
the region. Thank you.
    Admiral Harris. Thank you.
    The Chairman. Ms. Cheney.
    Ms. Cheney. Thank you very much, Mr. Chairman. Thank you, 
Admiral, for your service to the country and for your very 
frank answers and helpful answers here today.
    I wanted to follow up first on some questions about the INF 
Treaty and see if you could elaborate a little bit on the 
extent to which that treaty is now only, in fact, prohibiting 
the United States, only binding us, in many ways, if the 
Russians are violating it and if the Chinese are moving ahead 
in the production of weapons that we can't produce under that 
treaty.
    Admiral Harris. Yeah, I think you have said it all. And my 
concern--so the INF Treaty doesn't affect China's weapons 
development or any other country's weapons development with the 
exception of ours and Russia's because they are not signatories 
to the treaty. It is a bilateral treaty signed in 1985 during a 
bipolar world, us and the Soviet Union and then now Russia and 
some of the republics that have come out from that.
    I don't know if Russia is wholesale violating the treaty. I 
do know that General Selva testified that they have violated it 
in certain aspects. So we should hold them to account for that.
    On the nuclear side of the INF Treaty, I believe it is 
holding, and I would be hesitant to call for us to pull out of 
the treaty, because anything you could do to limit nuclear 
weapons is a good.
    But the treaty not only governs nuclear weapons but also 
conventional weapons in the ballistic and cruise missile 
regimes. And that is what I am worried about. So I am worried 
about Chinese weapons and what we are going to do about it.
    So we can't stop the Chinese from developing weapons that 
run counter to INF, because they are not a signatory to INF. 
But we can't develop weapons that can match those because we 
are a signatory to it and we follow it like you would expect 
America to follow a treaty, to the letter.
    Ms. Cheney. Thank you. And, in particular, one of those 
kinds of weapons that they are developing that we are precluded 
from developing are the hypersonic weapons. Is that right?
    Admiral Harris. That is correct.
    Ms. Cheney. Could you talk a little bit about missile 
defense against hypersonic weapons, in terms of, you know, what 
the capabilities are, if any, that we might have today?
    Admiral Harris. Yeah, I really don't want to get into that 
in this hearing. Happy to discuss it in the classified section.
    Ms. Cheney. Okay. Thank you. In terms of missile defense 
and our allies, is there more that we could be doing, for 
example, with respect to the sale of Aegis Ashore sites or 
THAAD to Japan?
    Admiral Harris. Yeah, I believe that there is more that we 
can do, and we should make available, I think, those systems to 
countries that are our allies and close friends that would want 
them. You know, I don't want to get into a discussion with 
Japan, for example, on what is better. I think they can make 
that decision. But we should encourage them to go down that 
path.
    I think that, within our treaty structure, our alliance 
structure in Northeast Asia, for example, one of the things 
that could be done, which we can improve on, is the 
relationship between Japan and South Korea, right? They both 
have Aegis weapons systems, they both have Patriot, they both 
have ballistic missile defense. And they need to get along 
better. And I am happy to report that they are, that we are 
having an effect in that, and they recognize the need to do 
this. And the relationship between both of them and the 
trilateral relationship is improving, which is helpful.
    Ms. Cheney. And then just a little bit more on China. It 
has long been, sort of, the policy, including in the previous 
administrations, the Bush administration, the Obama 
administration, today, that we need to get the Chinese to put 
pressure on North Korea, as you have discussed at some length 
here.
    But could you talk a little bit about what you see as their 
real interests? I mean, if you look at the developments that 
they are making to prevent us from access in the same area, you 
know, how much do we really think we could count on them, in 
terms of--some of their interests seem very aligned with the 
North Koreans' interests.
    Admiral Harris. So I think that, in regards to the 
peninsula, the Korean Peninsula, China's interests include they 
don't want to see a North Korean regime that collapses and then 
have a refugee problem from the millions of North Koreans that 
would probably head into China. So that is one problem. They 
don't want to see a unified peninsula that is unified with 
Seoul, Korea, as its core. They don't want an American ally on 
their borders. So that is problematic for them.
    So those are, I think, historically, their big concern with 
what is happening on the peninsula. And that has driven their 
actions. That has driven them to be helpful in some points and 
less helpful in others, both in terms of actual things and in 
the temporal sense.
    But I think that President Trump has convinced President Xi 
that there are other benefits to having a denuclearized North 
Korea and it is to China's benefit that it be that way, and 
then we will go forward and see where it goes. And I think it 
is early days, for sure, but China seems to be helpful here, 
and, you know, I want to acknowledge that and be optimistic.
    Ms. Cheney. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman. Admiral Harris, 
thank you for being here today. And I really want to thank you 
and all of your women and men underneath your command.
    I am going to get off of the subjects that we will deal 
with in the classified meeting, but I want to go back to ISIS 
for a second. You had mentioned that there were ISIS-inspired 
terrorism in Bangladesh, Indonesia, Malaysia, and the 
Philippines. These countries don't have the best history as far 
as being able to adapt to those types of situations. And they 
are countries also that are within your area that could be 
helpful in the future.
    How do you see this developing as far as, if ISIS does get 
in there, how do we address that situation? And how confident 
are you that they are able to address it themselves or need our 
help?
    Admiral Harris. So I am encouraged by the activities of 
those countries--the Philippines, Malaysia, Indonesia, and 
Bangladesh--principally because they understand the problem 
set. And one of the subordinate commands to PACOM, Special 
Operations Command Pacific, or SOCPAC, is involved in advising 
and assisting the militaries of those countries. And I think 
that is important.
    So SOCPAC is in the southern Philippines, for example, 
helping the AFP, the Armed Forces of the Philippines, go after 
the problem set themselves. So this is a Philippine problem 
set. The Philippine authorities are the ones taking direct 
action, and we are helping them where we can and where they 
want to have help.
    So I think that is the approach that is good for the 
Pacific, and it is working, I think, right now.
    Mr. O'Halleran. And do any of these countries, Admiral, 
have the ability to assist in anything that would occur in the 
South China Sea? Or if they don't, what do we have to do in 
order to get them up to that level?
    Admiral Harris. Yeah, I think they are reluctant to be 
involved in activities in the South China Sea that would put 
them in a position of confrontation with China. It is the 
Philippines, though, that we have to remember is the one who 
started the arbitration case which got us in the place we are 
in the legal framework.
    But, you know, these countries are subject to economic 
pressures and other pressures from China. And they all have 
issues--not all of them, but Malaysia, for example, has issues 
in the South China Sea with China, as does Indonesia in an area 
north of Natuna, and Malaysia with the South Luconia Shoals, 
and all of the issues that we know about with the Philippines.
    So I think that we need to encourage them to stand up to 
China, and we need to backstop them where we can, especially 
with countries that we are allied with, like the Philippines. 
They are a treaty ally of the United States.
    Mr. O'Halleran. But the Philippines also have some internal 
problems----
    Admiral Harris. Sure.
    Mr. O'Halleran [continuing]. That can cause us some 
problems. I guess, from your remarks, I am going to take it 
that depending on them for substantial help in that area is 
probably minimal.
    Admiral Harris. Right.
    Mr. O'Halleran. Okay. Mr. Chairman, I yield.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. Admiral Harris, thank 
you for being here today.
    In 2010, a Republic of Korea Navy ship was sunk by what is 
believed to be a North Korean torpedo. That same year, the U.S. 
Navy issued an urgent operational need to accelerate the 
development of the Navy's Surface Ship Torpedo Defense system, 
which provides an advanced torpedo detection, classification, 
and countermeasures system to protect the Navy's high-value 
surface ships and aircraft carriers from increasing torpedo 
threats.
    Since then, torpedo threats have continued to increase, 
with adversary submarines operating within torpedo range of 
carrier battle groups, as evidenced by encounters in 2015 with 
the USS Ronald Reagan battle group and today, highlighted by 
the current and aggressive threats we face from North Korea.
    I understand that four systems have been successfully 
tested, installed, and deployed since 2014 to help counter this 
threat, with over 20,000 operational hours on board high-value 
units. However, I also understand that budget constraints may 
be threatening the further development and deployment of this 
system on all CVNs [aircraft carriers].
    This is particularly concerning considering the recent 
provocations from our adversaries and specific threats this 
week from North Korea stating their intent to sink a U.S. Navy 
strike group led by USS Carl Vinson.
    With nearly $530 million invested in this technology to 
date, is there a renewed priority to ensure this system 
development continues and is rapidly deployed on every high-
value unit in our fleet?
    Admiral Harris. Sir, I am not an expert on the system, but 
I will say that the budget constraints are such that the Navy 
will have to make difficult decisions, and this will likely be 
one of those decisions that will be made. The system would be 
cut if we don't get, you know, the budget or if the Navy 
doesn't get the resources that it has asked for.
    Mr. Banks. Can you defend the priority?
    Admiral Harris. I don't know what the Navy has put above 
this in terms of other systems that they would keep and this 
one they would cut. But I will trust the Navy to be able to 
prioritize all of the systems they have, and then they are 
going to have to take cuts. I mean, you know, in a finite 
fiscal environment, then you can't have everything. And I think 
the Navy will make those difficult decisions.
    Mr. Banks. Thank you, Admiral. Mr. Chairman, I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Admiral, welcome. 
And thank you for your testimony here this morning, and, most 
especially, thank you for your great service to the Nation.
    So we have recently seen an increase in military operations 
by the new administration, such as the cruise missile strikes 
in Syria and the large-yield bomb dropped in Afghanistan. And 
while I certainly think that both of those actions were 
appropriate, if we move the aperture over to North Korea, I 
fear that employing similar actions without broader, more 
strategic goals in place may have disastrous effects on the 20 
million South Koreans and 24,000 U.S. troops living within 
range of North Korean Army artillery.
    How is PACOM ensuring that the broader strategic 
implications are being weighed when planning action on the 
Korean Peninsula?
    Admiral Harris. Yeah, I think it is a good question, sir, 
and, as I talked earlier, I believe that the best thing that we 
can do, as PACOM, the best thing that I can do is to ensure 
that we have credible combat power available all the time to 
face whatever threat comes out of North Korea. I think the lack 
of a strong, credible combat deterrence is actually an 
encouragement to Kim Jong-un to do things that are provocative 
or dangerous or both.
    And so if we don't have that capability or if he thinks we 
don't have the capability, then that will make him, I think, 
adventurous. And that would, in fact, then threaten those 25 
million people who live in Seoul. That would then require a 
response by us and our South Korean ally, and then we would be 
at it again.
    So I believe that the best thing that I can do is to 
provide that credible combat force in the face of Kim Jong-un's 
provocations.
    Mr. Langevin. Thank you, Admiral.
    On another topic, I strongly believe that multilateral 
exercises with our partners and allies are critical at 
achieving a unified front in the face of some of our more 
aggressive and challenging adversaries, whether they be in the 
Indo-Asia-Pacific region, in the EUCOM [European Command] 
arena, or elsewhere. Unfortunately, we constantly hear that 
these exercises are at increasing risk of being canceled due to 
budget constraints and uncertainty.
    What lessons do you fear we risk losing if we are unable to 
work with our allies? And will these partnering countries seek 
or be approached by other powerful nations in the region to 
fill the void that the U.S. leaves?
    Admiral Harris. Yeah, clearly, the exercises are important 
on a number of levels. For those countries that are our 
military peers, you know, the high-end militaries in the 
region--Japan, Korea, Singapore, Australia, and New Zealand--
you know, these are high-end militaries that we need to 
exercise with because we might be in a position to have to rely 
on them for some operation or they might be in a position to 
rely on us for some operation, and if we don't know how to work 
with them, then it will be unproductive in the early days.
    And then there are countries that seek to be better, and 
exercises with us and countries like us are desired. If we 
can't provide that level of exercise support, then the other 
countries will step in and do that in lieu of us. And when I 
say ``other countries,'' that is a euphemism for China.
    And so China will step in, and they will become, or they 
will try to become, the security partner of choice, if you 
will, for countries that we are their security partner of 
choice today, but that is because we invest time and resources 
and equipment, and the American people, reflected in the 
soldiers, sailors, airmen, marines, coastguardsmen, we invest 
in our relationships with these countries.
    And if we don't do that because of budget constraints--and 
exercises are clearly on the table. The services will cut stuff 
and I will cut exercises in order to make my books balance. And 
the end result of that is we will have a lesser-capable 
military alliance structure, not only because our allies would 
be less capable but we will be less capable. And then we will 
also have less professional relationships with our friends and 
partners in the region.
    Mr. Langevin. Thank you, Admiral. You have confirmed a lot 
of things that I feared or had concerns about. So thank you for 
the work you are doing. I have other questions I will submit 
for the record.
    But, Admiral, thank you for your service and the 
extraordinary work you are doing. I yield back.
    The Chairman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Admiral, for being here. I always appreciate 
people like yourself that give your life to protecting the rest 
of us.
    Admiral, you know that some of the times when we ask you 
questions, it is not just to be enlightened; it is sometimes we 
even have some idea what the answer is, but we are trying to 
inform policy decisions, sometimes even use it for leverage for 
policy decisions. So that might reflect some of my questions 
here today.
    So the first one is a general question. About, in general, 
how much did we spend to field the Aegis Ashore test site at 
the Pacific Missile Range Facility [PMRF]?
    Admiral Harris. Sir, I don't know, but I will find out for 
you and get back to you.
    Mr. Franks. All right. That would be fine.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Franks. Then a followup: Does it make sense to defend 
Hawaii from Alaska, instead of using this particular site?
    Admiral Harris. Yeah, in response to an earlier question, I 
believe we should do both--we should consider doing both.
    Mr. Franks. Redundancy.
    Admiral Harris. I think so. And while I am not advocating 
for interceptors in Hawaii, I am advocating that we study the 
issue of putting interceptors in Hawaii, which I think is 
prudent.
    Mr. Franks. Sure. Well, we have the Navy's new SPY-6 and 
the TPY-2 radar at the Pacific Missile Range Facility. Can we 
use those radars to add to the defense of Hawaii today?
    Admiral Harris. I believe we can, but I am advocating for 
the defensive Hawaii radar a different radar, a different kind 
of radar. I think that there are two different--or a couple of 
defense contractors that are interested in providing that. So, 
you know, I don't have a view as to which radar is better or 
all of that, but I think we need to have a defensive Hawaii 
radar system, and then we should look at the interceptors that 
would naturally go with that.
    Mr. Franks. Would it be better, in terms of some of the 
those mechanisms, to wait several years to conduct the 
environmental impact statement process and analysis of 
alternative processes to build a brand-new radar?
    Admiral Harris. Well, I think we have to follow the rules, 
right? And so the EIS, the environmental impact statement, and 
all of that is important, and I think we must follow those 
rules.
    That said, there is a sense of urgency here. I mean, Kim 
Jong-un just a few days ago threatened Australia.
    And so, you know, we have a sense of urgency and the rules, 
and I think we can bring them together in ways that don't 
violate the law but also move this thing forward.
    Mr. Franks. Are you suggesting that if a warhead landed 
that it might have an environmental impact?
    Admiral Harris. It might have that, sir.
    Mr. Franks. All right. Should we evaluate the capability of 
the SM-3 Block IIA to defend Hawaii from North Korea and its 
ICBMs?
    Admiral Harris. I think we should evaluate that. That 
should be one of the systems that we look at to see what is 
best for the defense of Hawaii.
    Mr. Franks. In terms of Hawaii's defense, and specifically 
with North Korea in mind, is there anything that you would tell 
this committee that you think is a priority that has not been 
essentially elaborated on here today?
    Admiral Harris. No, sir. I think I have been pretty clear 
that I am advocating for a defensive Hawaii radar, I am 
advocating for a study to see if it is worthwhile to put 
interceptors in Hawaii to improve Hawaii's capability against 
North Korean missiles--or anyone else's missiles, for that 
matter.
    Mr. Franks. Well, Admiral, thank you, and we will save any 
other questions for the classified moments. Thank you, sir.
    Admiral Harris. Thank you, sir.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Hello, Admiral Harris. 
Good to see you.
    And I would like to thank Congressman Franks for his 
concern over Hawaii. Some people think we are just an island, 
and it is good to hear that my colleagues are concerned about 
the safety of our islands.
    Congressman Franks also brought up PMRF, which I have 
always felt is essential to the defense not only of the PACOM 
or Indo-Asia-Pacific area but also for the rest of the United 
States.
    And I think what we are getting at here--and if we can't 
talk about it except in a classified setting, I can understand 
that--and that is really, the land mass that we have, the 
question is whether we can have a permanent interceptor in 
Hawaii and still not sacrifice the missile ranges now, what it 
tends to do, which is to do all the testing.
    Do you have an opinion as to whether the two can coexist? 
Because I have heard the use of the phrase ``conditional 
permanent'' versus an actual permanent structure.
    Admiral Harris. Yeah, I believe they can coexist. And I 
also believe that PMRF, the Pacific Missile Range Facility, is 
a national treasure.
    Ms. Hanabusa. I agree with you. I think you can't duplicate 
it anywhere----
    Admiral Harris. Right.
    Ms. Hanabusa [continuing]. Especially with the undersea 
component of it.
    Admiral Harris. The whole thing, the size of the airspace, 
the size of the range space, it cannot be replicated. It is a 
national treasure.
    Ms. Hanabusa. And I guess on that note, we should tell our 
colleagues in Hawaii that they should be very receptive to 
extending the lease surrounding PMRF, because that, of course, 
has kept it in the position that it is in.
    I am also interested in the concept of the undersea warfare 
that you wrote about in your testimony and that fact that out 
of the 230 of the world's 400 foreign submarines that are in 
the Indo-Asia-Pacific region, 130 of them belong to China, 
North Korea, and Russia.
    I guess my other question is, who do the others belong to? 
But in addition to that, what is the capabilities of these 
submarines that we find?
    Admiral Harris. So the others are friends, allies, and 
partners and us--Japanese, Koreans, Indonesians, Indians, you 
know. And so they all add up.
    The capabilities vary depending on the country. Some are 
very, very capable. The Japanese submarines, the French 
submarines that Australia is going to buy, highly capable 
submarines. Others are not so capable, the North Korean subs, 
for example.
    China has a range, so they have capable submarines at the 
high end and less capable older ones. But they are trying to 
make the capable submarines even more capable and close the gap 
with us. China has the full range--diesel boats, nuclear boats, 
guided-missile submarines, ICBMs--or SSBNs, their Jin-class 
ballistic missile submarines, and so on. So it kind of covers 
the range.
    Russia's most advanced and newest class of submarines are 
now in the Pacific. The Dolgorukiy-class SSBN is now in the 
Pacific.
    So these are dramatic improvements in capability of 
competitor submarine forces.
    Ms. Hanabusa. And we hate to say this, but how do they 
compare to our submarines, Russia's newest, top-grade 
submarines?
    Admiral Harris. Yeah, as I have said before, I believe that 
there is no submarine on the planet that can touch an American 
submarine, a Virginia-class submarine.
    That said, that gap between us and the next best and the 
third next best is closing, and our competitors are working and 
investing hard to close those gaps. And we have to continue to 
resource our submarine force in order to keep that gap a gap.
    Ms. Hanabusa. In the testimony or the statement by General 
Brooks, he talks about a successful testing of North Korea's 
developmental submarine-launched ballistic missile. Now, I am 
curious as to whether it launched from North Korea's submarine 
or--and how many of them do they have floating out there?
    Admiral Harris. They have one. It is designated as SSB, as 
opposed to SSBN, because it is a conventional submarine. It is 
the Gorae, G-o-r-a-e. And that is the rudimentary ballistic-
missile-capable submarine that North Korea has.
    Ms. Hanabusa. But it can launch, nonetheless, a ballistic 
missile?
    Admiral Harris. It can. It is a rudimentary submarine, but 
it can launch a ballistic missile.
    Ms. Hanabusa. Thank you, Mr. Chair. I yield back. Thank 
you, Admiral.
    The Chairman. Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman. Thank you, Admiral, 
for being here and for your very informative answers and direct 
answers.
    And I would postulate that, save the North Korean-Chinese 
border being heavily armed by their militia and their armies, 
that China would already be having a significant refugee crisis 
from North Korea because of the starving citizens under Kim 
Jong-un's leadership.
    You answered most of the questions. I just have one. For 
your intelligence, surveillance, and reconnaissance, your ISR 
requirements, in your command specifically--your command is so 
vast--are those requirements being met on the ISR platforms?
    Admiral Harris. They are not, sir. But I believe any 
combatant commander would sit here and tell you that his or her 
ISR requirements are not being met.
    Dr. Abraham. So it could use, certainly, more drones, more 
aircraft, certainly.
    Admiral Harris. Right. All of the above. You know, I call 
myself--I have an insatiable need for stuff because I think you 
all have an insatiable need for security.
    Dr. Abraham. Thank you so much. I yield back, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Admiral, it is good 
to see you again, and thanks for your service. I served for 26 
years. My squadron was on the hook in OPLANs [operation plans] 
to go support your theater if needed.
    I am deeply concerned about the North Korean threat. It 
certainly didn't come overnight, but I think there is a sense 
of urgency, the grave nature of it, for them to be heading 
towards a potential to hold hostage United States cities with a 
nuclear weapon. From my view and many of us here, that is a 
nonstarter, and I am sure you agree with that.
    But as you have talked today, eloquently, about some of the 
options of how to address that, they are not easy options, 
right? And some people will argue whether we are dealing with a 
rational actor or not, trying to manage that escalation 
potential, while we ensure we have the combat power that you 
need to have a real deterrent. Because deterrence means you 
have to have capability and intent, right, in order to stop his 
action. And whether he is rational or not, these are all the 
factors that are needing to be considered.
    China is often considered to be in a critical role here, 
and some people think that maybe they are stepping up finally. 
But they have really not acted in good faith in the past. You 
know, they support U.N. [United Nations] Security Council 
resolutions, but then they don't really enforce them. They are 
trying to kind of have it both ways.
    I am wondering, in your perspective, as a sailor, 
statesman, and your strategic mind and your understanding of 
the dynamics in the area, has something shifted recently, with 
China realizing it is in their best interest to do whatever it 
takes to stop this threat from happening? And if so, could you 
just share some of your perspectives on that?
    Admiral Harris. So, on the question of China being helpful 
now in the current framework, I think it is early days. And so 
President Trump had, I believe, an excellent meeting with 
President Xi, and China is doing things.
    Whether they continue to do things or not, I mean, we are 
going to have to wait and see. As you say, in the past, China 
has said they were going to do things and not done them or not 
said it and then done them and all of that. So it is early 
days. So we will just have to see how this goes.
    I am encouraged----
    Ms. McSally. Okay.
    Admiral Harris [continuing]. And I believe that Kim Jong-un 
has noticed that there is a change afoot with regard to China, 
and I think that is important.
    With regard to the issue of whether he is a rational actor 
or not, I think the term ``rational'' or ``crazy'' or 
``irrational,'' I don't think those are helpful, because he is 
what he is. This is what Dr. Perry said a long time ago. You 
have to deal with Korea as it is, not as you want----
    Ms. McSally. Not as you want it to be.
    Admiral Harris. And so he is what he is. Rational or not, 
he is in control of his country, he is in absolute control of 
his military----
    Ms. McSally. Right. But that matters for our deterrence 
theory, right, whether somebody is doing that cost-benefit 
analysis.
    Admiral Harris. It does. It does.
    Ms. McSally. Yeah.
    Admiral Harris. And he is on a quest for nuclear weapons 
and has stated----
    Ms. McSally. Right.
    Admiral Harris [continuing]. Threatened American cities, 
Australian cities, and the like.
    I believe that part of deterrence is also signaling. You 
know, so you have capability times result times signaling. And 
the signaling part is what we are doing. I think that is where 
your military comes into play.
    So all that together comes down to what I responded to 
earlier, that my job is to provide options to the President but 
also to provide credible combat power----
    Ms. McSally. Right.
    Admiral Harris [continuing]. Visibly, so that KJU will 
think about that when he does the things that he does.
    Ms. McSally. Thank you. And, in your testimony, I am also 
concerned--and you laid it out pretty clearly--about the 
aggressive increase of China's activity in the South China Sea, 
East China Sea. And these are things we have talked about the 
last few years.
    A lot of the public, I think, is not aware. You know, they 
have created islands where they previously didn't exist 
before--7 military bases, capability for 72 fighter hangars. 
They are closing the capability gap.
    Are our options in the area, militarily, complicated by the 
fact that we are now sort of pressuring China to deal with 
North Korea in addressing their aggressiveness in the region? 
It seems we have to look at it all together.
    Admiral Harris. I believe, Congresswoman, that we can walk 
and chew gum at the same time, and great powers can have 
disagreements in one area and agree in another and can do both.
    Ms. McSally. Okay.
    Admiral Harris. And I think that we should encourage China 
and be appreciative of what they are doing with us with regards 
to North Korea, and we should also be willing to criticize them 
for their aggressiveness and coerciveness in the South China 
Sea.
    Ms. McSally. Thanks. And these bases they have created, you 
have talked eloquently about the destruction to the marine 
ecosystems and how this is being an environmental catastrophe. 
Are you hearing, since last year when we talked about this, any 
outcry from environmentalists, international groups? I mean, 
this is a major destruction. Are you seeing anything shift?
    Admiral Harris. I am not seeing anything from the 
environmental community. Dr. McManus and his team down at the 
University of Miami continue to say that this is the worst 
ecological disaster in human history. The U.S.-China 
Commission, which is an arm of Congress, has written about this 
in their 2016 report, about the damage that China has done to 
the fragile ecosystems in the South China Sea.
    Ms. McSally. Thanks. I am over my time, but the silence is 
deafening, I think. Thanks. I yield back, sir.
    The Chairman. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you, Admiral 
Harris, for your service.
    As you know the history, President Clinton, in 1994 through 
2002, got North Korea to agree to freeze plutonium production. 
And the fact is that we had a deal where we were going to buy 
all of their medium and intermediate missiles. And then 
President Bush came and disregarded both of those deals and 
labeled North Korea as part of the axis of evil.
    Isn't it a fact that if President Clinton's approach had 
been followed and those agreements had been followed through 
on, that we wouldn't be in the situation we are in today?
    Admiral Harris. You know, as I review the history, I don't 
want to be accused of, you know, being a revisionist historian, 
but I believe that, you know, agreements have to go both ways, 
and I don't know that we could have believed with certainty 
that Kim Il-sung would have followed that agreement.
    We know that Kim Jong-il and Kim Jong-un--or Kim Jong-il, I 
guess, in 1992, and Kim Jong-un have raised the level--
especially KJU has raised the level of threats against us and 
our treaty allies. And that is what I have to focus on. What I 
think about is where we are today.
    Mr. Khanna. But we know, sir, that for 8 years there was no 
plutonium production. Do you believe that direct talks, the 
kind that President Clinton initiated, where we had a plan to 
buy the long and medium-size missiles, would be an approach? 
And do you think it was a mistake in 2002 to label them part of 
the axis of evil and give up on both diplomatic efforts of the 
Clinton administration?
    Admiral Harris. Again, sir, you are asking me to grade the 
homework of a Commander in Chief, and I am just not going to do 
it.
    Mr. Khanna. The other question I had is: The recent 
ballistic missile launch in North Korea was launched with Prime 
Minister--the Japanese Prime Minister's visit. And I am sure 
you are familiar with Nobusuke Kishi, the Prime Minister's 
grandfather. The Prime Minister's grandfather was, under the 
United States, labeled a war criminal. And the North Korean--
KJU's grandfather fought Nobusuke Kishi in World War II.
    Do you think the North Korean missile launch may have had 
something to do with the fact that Prime Minister Abe's 
grandfather, who was a war criminal and fought the Koreans, 
fought his own grandfather, had something to do with the 
history?
    The reason I ask these questions is I feel our foreign 
policy needs to be dictated with an understanding of the 
complexity of history in President Clinton's approach, which, 
in my view, was successful.
    Admiral Harris. Sir, I will just say that my father fought 
my mother's relatives in Japan. My father was an American 
sailor in World War II, my mother's family are Japanese, and 
they fought each other. But that doesn't change the fact that 
Japan and the United States are the closest of allies today.
    And I don't think that--my personal opinion is I don't 
think that KJU's grandfather's history with Prime Minister 
Abe's grandfather, Nobusuke Kishi, I don't think that that 
affects how KJU acts today in Northeast Asia.
    Mr. Khanna. I mean, he has been making these threats, and I 
agree with your testimony, sir, about the crazy threats against 
Australia and New Zealand. And he has been making these threats 
for the last number of decades. But you would not--would you be 
open to at least exploring direct talks again of the kind we 
had in the Clinton administration? And do you think that there 
is any possibility to get to buying missiles?
    And the reason I say this, because you understand better 
than any of us--and I admire not just your service but your 
family's service to this country--that the nuclear missiles 
there--as I understand it, there are 15,000 underground sites 
that have this. North Korea is not--they have got 200,000 
special forces or an army. I mean, it is not an insignificant 
country.
    And so, when we are looking at what the options are, 
shouldn't one option be the type of diplomatic approach that 
President Clinton took?
    Admiral Harris. I believe that, as the President has said, 
that all options should be on the table, whether they are all 
kinetic options, where I come in, or whether they are other 
options, where the State Department could come in, Treasury, 
Commerce, and the like. I think we need to have all the options 
on the table.
    But simply because North Korea is getting stronger 
militarily is no reason for us to turn our back on our allies 
and on ourselves and acknowledge and roll over and suggest that 
because they are stronger we should do nothing.
    Mr. Khanna. I appreciate your service, sir.
    Admiral Harris. Thanks.
    The Chairman. Mr. Conaway.
    Mr. Conaway. I am over here, Harry.
    Admiral Harris. Yes, sir.
    Mr. Conaway. Thank you, and appreciate you being here, your 
service.
    Trent Franks' comments about self-serving questions, I am a 
cosponsor of the 12th carrier authorization. Would that make 
life easier in the Pacific, if you had another carrier at your 
disposal?
    Admiral Harris. In the Pacific? Yes, sir, it would.
    Mr. Conaway. All right. You mentioned a couple of times 
that you have to balance your books. Turning to a little more 
mundane issue that doesn't rise to the level of criticality of 
some of the other things we are talking about but nevertheless 
important, you have mentioned balancing your books several 
times, sequestration impact, CR's impact. I am concerned that 
the Navy cannot audit its books and records, as everyone in the 
system is concerned.
    Are there any issues--and your team is not directly 
responsible for auditing, but you buy a lot of stuff, you have 
a lot of internal controls that have to be functioning in order 
to be auditable. Are there any things going on in your command 
that you can't get fixed in order to allow the Navy to reach 
their audit capabilities?
    Admiral Harris. Yeah, sir, I am not an expert on the audit 
issue. And the combatant commands don't--we don't buy a lot of 
stuff. You know, we don't have--you know, the services get the 
budget, their part of the budget. They are the ones that go out 
and buy ships, airplanes, submarines, tanks, and all that kind 
of stuff.
    Mr. Conaway. Right.
    Admiral Harris. But I----
    Mr. Conaway. But you buy fuel, you buy ammunition. You are 
responsible for keeping track of fuel, ammunition, other things 
that do affect----
    Admiral Harris. Right, the services are, through the 
service components underneath PACOM.
    Mr. Conaway. Right.
    Admiral Harris. But I am not charged with auditing what 
Pacific Fleet does with fuel and that kind of stuff.
    Mr. Conaway. Well, I know, but you are in charge of those 
who do.
    Admiral Harris. I am.
    Mr. Conaway. Is it an issue that, if it came to your 
attention, you would weigh in on it----
    Admiral Harris. I would, if I could understand how my 
weighing in would have an effect or if it can move the process 
along.
    Mr. Conaway. Okay.
    Admiral Harris. I believe in auditing. I think it is 
important that not only we have enough money to buy the things 
that we need, that we buy them in ways that comport with the 
law and no wastage.
    Mr. Conaway. Yeah. At some point, though, American 
taxpayers' support for getting you enough money will hinge on 
whether or not we can prove to the American people that we keep 
track of it properly through these audits.
    Turning back to North Korea, the election is next month for 
a new President. Any sense of what impact that will have on our 
alliance, our relationship with that country?
    Admiral Harris. I don't think it will have any impact on 
our alliance or our relationship. I think that the North Korean 
threat is so big that the Korean people writ large appreciate 
the alliance and what the alliance does for them and for us. It 
is a two-way street.
    And I believe the major candidates--you know, we are down 
to five candidates now. And the frontrunners have come out 
strongly in favor of THAAD, strongly in favor of the alliance. 
And I think that it will be good no matter who wins.
    And I think that is a tribute--you know, we should 
acknowledge what this is. I mean, here you have an ally, a 
country, South Korea, that is under this enormous threat. Their 
President was impeached. They have a strong military. And yet 
they are proceeding apace with the democratic process, which I 
think is just terrific. And they are going to elect a new 
leader here, a new President here, the 10th or the 9th or so of 
May, and I think we will go forward from there.
    Mr. Conaway. Well put. I think the strength of that 
democracy and the republic there is shown by the ability to 
handle these crises that are going on right now. And we are 
proud of those folks, but obviously want to make sure that they 
know that they have our support to make sure that whatever that 
threat is up north is handled.
    Again, thank you for your hospitality when I was in your 
area a couple years ago, and appreciate that. Thank you for 
your service. I yield back.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair. Thank you, Admiral.
    And, luckily, this was just brought up. What is the current 
communication and decisionmaking process, considering that 
South Korea is going through a political leadership vacuum 
right now? Who is our counterpart? Who is helping at least the 
South Koreans make the civilian military decisions?
    I am concerned, obviously, that we are going through an 
election, and I am glad that, obviously, it is going to 
continue going forward. But in these tough times, like, who are 
we talking to within the South Korean leadership right now on 
the political side and on the military side also?
    Admiral Harris. So, on the political side, they have an 
acting President. They have a strong Minister of Defense.
    Mr. Gallego. But----
    Admiral Harris. And so I think on the political side things 
are working fine.
    On the military side, even more so. I mean, my counterpart 
is General Lee, the chairman of the ROK military. General 
Brooks, U.S. Army, the U.S. Forces Command Korea commander, is 
in-country. You know, he would normally be here except he is 
busy right now. And so he has daily, if not even hourly, 
contact with General Lee and with the folks, the military 
folks, and with Minister Han, the Minister of Defense there in 
Korea.
    We have a charge d'affaires there, in lieu of an 
ambassador. And General Brooks and the charge are closely 
connected so that the military and the diplomatic dimensions of 
American power are in place and operating with their South 
Korean counterparts on the peninsula against the North Korean 
threat. I am very confident in General Brooks and his team.
    Mr. Gallego. Thank you, Admiral. But it does scare me that 
we don't have a South Korean ambassador while at the same time 
South Korea doesn't have a fully vested President.
    Does the acting President right now have the full 
confidence of its military leadership, or at least the 
political backing of the parties, to act in concert with 
whatever needs to occur in the next couple weeks, should 
something occur?
    Admiral Harris. Absolutely. I mean, as I mentioned to the 
previous question, I think South Korean democracy is very 
strong, very vibrant. And the military in South Korea 
understands its place in the civil-military structure and that 
civilian control of the military is primary there just as it is 
here in America.
    Mr. Gallego. Okay. I yield back.
    The Chairman. Admiral, let me just touch on a few things we 
haven't gotten to yet. Maybe one or two sentences on our mil-
to-mil relationship with some other countries? So, for example, 
Philippines?
    Admiral Harris. We have a great mil-to-mil relationship 
with the Philippines, despite some of the perturbations that we 
have talked about over the past year. We have a strong 
relationship with them, with the Armed Forces of the 
Philippines, and in all the areas that we have had before, we 
still have.
    So we have Balikatan. We have Sama Sama, a new exercise. We 
are continuing with the EDCA, the Enhanced Defense Cooperation 
Agreement, and working on those sites with the Philippines. 
SOCPAC, Special Operations Command Pacific, is deeply involved 
in the counterterror operations in the south, in support of--
not in lieu of, but in support of the Armed Forces of the 
Philippines.
    So I am positive about our relationship in the mil-to-mil 
space, and I am encouraged by it.
    The Chairman. Vietnam?
    Admiral Harris. Vietnam is a great opportunity for us. I 
believe that the work that is being done in maritime security 
is positive.
    And we have this theory, this approach, called sense, 
share, and collaborate. It is where we are now building out 
their ability to sense what is going on in the maritime domain. 
Soon, they will be able to share that with each other and the 
other countries in the area; and then to coordinate with us and 
other countries with what they find in their maritime domain.
    So I am very positive about where we are with Vietnam.
    The Chairman. How about India?
    Admiral Harris. India presents, I think, the biggest 
opportunity for us. We share values, both large democracies, a 
lot of cultural commonalities with Indian Americans here in the 
United States and Americans who live and work in India.
    Their military is strong and growing. I think that we could 
be helpful to them in terms of jointness and demonstrating to 
them the value of jointness within their military. They are a 
major defense partner of us. We are helping them across the 
space and the defense realm.
    So I am very pleased with where we are with India. I have 
had the chance to address the Raisina Dialogue in its first two 
iterations, and I hope to return to India within a year to 
continue the relationships that we have built up with the 
Indian military.
    The Chairman. And, finally, we haven't really talked about 
the freedom of navigation operations in the South China Sea. 
How frequent? Do you command those? Can you talk a little about 
that effort?
    Admiral Harris. Yeah, so I command them through Pacific 
Fleet, down echelon. So the Pacific Fleet commander, he does 
the same with 7th Fleet. So, you know, generally it is a Navy 
operation, and so that will go through the fleet.
    I command them from a combatant commander perspective. I 
take direction and guidance from the Secretary of Defense and 
the National Command Authority on the conduct of those 
operations. I think we will be doing some soon.
    But that is kind of where we are on that today.
    The Chairman. Okay. Mrs. Murphy, do you have a question?
    Mrs. Murphy. Yes. Thank you. Admiral Harris, thank you for 
being here today.
    I had the pleasure of working for Admiral Fallon in the CAG 
[Commander's Action Group], and I appreciate your assessment of 
the security challenges in the region and how these conditions 
compared to my time at PACOM years ago.
    I wanted to know a little more about your vision for 
strengthening and modernizing our alliances and partnerships in 
the region. You described the effort in your testimony as 
``partnerships with a purpose.'' What does partnerships with a 
purpose look like, and where are there opportunities for 
growth?
    And I am asking you this today because I am introducing two 
bills to try to get at the enormous security challenges in the 
Asia-Pacific region by strengthening both our interagency and 
international commitments to the region.
    The first bill would create an interagency intelligence 
integration cell, which would streamline, synthesize, and 
synchronize intel on North Korea so that U.S. national security 
policymakers would have the best information possible to make 
decisions.
    And the second bill would authorize the President to create 
an Asia-Pacific defense commission comprised of the U.S. and 
willing partner nations to deepen cooperation between the 
United States and its regional allies to improve our ability to 
address some of the security challenges in the area.
    I think you may agree that the strength of our 
relationships in the region comes from trust, credibility, and 
across time. And these measures were meant to send a clear 
signal to both our allies and our adversaries that the U.S. is 
committed to the Asia-Pacific region in a credible and enduring 
manner.
    Admiral Harris. I think that on the partnerships with a 
purpose--and you will recall from your time there that almost 
all of our relationships heretofore have been hub-and-spoke 
relationships. These are bilateral relationships with all of 
the different countries that we have relationships with.
    I get it that our treaty allies by nature are bilateral, 
and that is what they want and that is what we want, for treaty 
allies. But I think that we need to go beyond hub-and-spoke to 
have partnerships with a purpose. And I will give you three 
quick examples.
    Our two treaty allies in Northeast Asia, Japan and Korea--
we are really about defending Northeast Asia, So that becomes a 
naturally forming trilateral relationship. There is no way, I 
don't think, that Japan and Korea are going to have an 
alliance, but we should have a trilateral relationship focused 
on defending Northeast Asia.
    I think there is a naturally forming, democracy-centric, 
multilateral, quadrilateral relationship between Japan, the 
United States, Australia, and India. I think there is a 
naturally forming partnership focused on counterterrorism: 
Philippines, Indonesia, Malaysia, Bangladesh, us, and Australia 
and New Zealand.
    So these are some of the ideas that we are trying to 
advocate for and forward and push these partnerships with a 
purpose.
    And I think the legislation that you have described, I 
think they are excellent. And I will need to study it more to 
get into the eaches of it, but I think, on the surface, based 
on what you just said, that they are commendatory.
    Mrs. Murphy. Well, I appreciate that. Thank you.
    And what do you think are some of the resource challenges 
or opportunities in actually resourcing the ability to do 
partnerships with a purpose?
    Admiral Harris. Yeah, so I think that, in the resources 
world, all I face are challenges, right? There is no glut of 
resources.
    But I think that the work of the Congress to forward the 
Asia-Pacific Stability Initiative is terrific, if that comes 
through. The last 2 years, we have had the Maritime Security 
Initiative, about $500 million or so spread out over a number 
of years, and I think that is helpful. But the Asia-Pacific 
Stability Initiative I think will help significantly as we go 
forward over the next few years.
    Mrs. Murphy. Great. Thank you.
    Admiral Harris. You bet.
    Mrs. Murphy. I yield back the remainder of my time.
    The Chairman. Admiral, thank you. For what it is worth, I 
think you all made the right call in keeping General Brooks on 
duty, given what is happening in the world. I appreciate your 
answers.
    The committee will reassemble upstairs in classified 
session in approximately 5 minutes or so.
    And, with that, this hearing stands adjourned.
    [Whereupon, at 12:33 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 26, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 26, 2017

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 26, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 26, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Can you briefly discuss how ISIL and various other 
violent extremist organizations (VEOs) have moved into the Indo-Asia-
Pacific region, what additional risks that poses, and how PACOM is 
monitoring and disrupting that challenge? Does that focus detract from 
PACOM's more traditional focus? How successful in disrupting these 
extremist networks have the multinational efforts with host nations 
been?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
    Mr. Langevin. As terrorist fighters in the Indo-Asia-Pacific region 
have made their way to the Middle East and North Africa to train and 
gain tactical experience, has intelligence-sharing between CENTCOM and 
PACOM been proactive in regard to identifying and tracking potential 
actors before they pose a significant threat?
    Admiral Harris. Yes. Information sharing is critical to our success 
across the globe. We have systems and processes that allow us to share 
information quickly. For example, USPACOM and USCENTCOM coordinate on a 
bi-weekly basis through a USPACOM-hosted video tele-conference (VTC) 
regarding terrorism issues that affect the seam between the USPACOM and 
USCENTCOM AORs. Regarding the broader issue of foreign fighters, 
USPACOM and USCENTCOM, along with other combatant commands and the 
interagency, coordinate as often as twice per week through various 
venues hosted by Operation Gallant Phoenix out of Zarqa, Jordan. 
Operation Gallant Phoenix is a multi-national coordination effort to 
disrupt the flow of foreign terrorist fighters. Intelligence 
coordination through all of these various venues has resulted in a 
number of operational effects, to include kinetic strikes against Indo-
Asia-Pacific-origin foreign fighters operating in the conflict zones in 
Iraq and Syria. Even so, we will remain challenged to discover threats 
against our allies and Westerners due to the complex nature of the 
adversary and improving extremist abilities to protect information.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. How important is it to maintain our U.S. defense, 
economic and political relationships with the Freely Associated States, 
which include the Republic of Palau, the Federated States of 
Micronesia, and the Republic of the Marshall Islands? Does the U.S. 
relationship we currently have with the FAS play any importance to the 
overall strategy of PACOM?
    Admiral Harris. The relationships that the U.S. Government 
maintains with the three Freely Associated States provide valuable 
strategic advantages. First, the Compact agreements allow the U.S. 
military to establish defense sites in these countries. These sites 
could potentially include new airfields or expansion/modification of 
existing airfields. These sites could also include port facilities, 
bases for land forces, radar and weather facilities, and communication 
stations. These locations are just as strategically important today as 
they were 75 years ago during World War Two. Indeed, as our 
adversaries' power projection capabilities grow, these areas are 
becoming more strategically important over time. They would play a 
vital role in a future contingency. Second, the Compact agreements 
permit the U.S. to foreclose these countries to the military forces or 
military purposes of any third party nation. This provision is 
absolutely essential in preventing third party nations from 
establishing a military foothold in these countries which would be 
detrimental to U.S. interests. In addition to maintaining defense 
relationships with these countries, the economic and political 
relationships are just as vitally important. It requires a strong 
bilateral partnership to maintain these Compact relationships in a 
fully-operable condition. When the U.S. asks for defense sites in some 
future contingency scenario, the speed and efficiency with which those 
sites will be established will rely heavily on the bilateral 
relationship which has been fostered to date.
    Mr. Bishop. Under the current terms of our Compact of Free 
Association with the Freely-Associated States (FAS), the United States 
provides guaranteed financial assistance over a 15-year period in 
exchange for full international defense authority and responsibilities 
of the FAS. Through our Compacts with these tiny island nations, PACOM 
essentially has charge over an area of the Pacific larger than the 
width of the continental United States. How important to PACOM's 
defense strategy is having this vast swath of the Pacific under strong 
U.S. influence?
    Admiral Harris. The Compact agreements give the U.S. an enormous 
zone of strategic advantage in the western Pacific. This provides 
significant advantages in establishing the air and maritime dominance 
that would be required to ensure U.S. military capabilities in a 
contingency involving our allies in the region such as the Philippines 
or Japan, or our partners, such as Taiwan. More broadly, air, maritime, 
land, and logistics dominance in this zone is essential to maintaining 
our interests throughout East Asia. Military advantage in the western 
Pacific sustains the credibility of U.S. combat power and defense 
commitments that underpin our influence and relationships regionally. 
Were an adversary to control these areas, the results could be 
catastrophic for U.S. power and influence, and regional stability and 
prosperity.
    Mr. Bishop. In 2010, the U.S. and the Republic of Palau conducted a 
review and renewal of the Compact, which was then signed by both 
nations, but has yet to be authorized by the Congress. In the interim, 
China has expanded its soft power reach into Palau through the 
construction of luxury beach resorts and other economic development 
projects, in an obvious attempt to undermine the U.S. relationship with 
the island nation. It is reasonable to anticipate that China will 
continue to move-in a similar fashion to their regional neighbors by 
expanding its footprint either through military posturing or tempting 
gestures of economic assistance. Does PACOM have specific concerns on 
the impact to U.S. interests potentially caused by continued delay by 
our government in living up to its commitments in funding the Compact 
with Palau?
    Admiral Harris. The authorization by Congress of the 2010 U.S.-
Palau Compact Review Agreement will send a strong message not only to 
Palau, but to the entire region. Specifically, it will undermine 
adversarial moves, it will reinforce U.S. commitment and legitimacy, 
and it will enhance regional confidence. Chinese interest in 
development projects in Palau is particularly concerning. If the U.S. 
is unable to maintain its financial commitments to Palau, it is unclear 
how willing Palau will be to adhere to Compact requirements and resist 
commercial projects from China which have a dangerous dual-purpose 
potential. Without financial assistance, U.S. influence may erode to 
the point where it becomes detrimental to U.S. security interests. When 
it comes to influence in Palau, the U.S. will ultimately get what it 
pays for.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. Outline the value of the Palau Compact for you as 
PACOM Commander? What does it enable in terms of hard- and soft-power 
for the United States in the region, and at what cost? Would you 
advocate for Congress to renew this compact?
    Admiral Harris. The Palau Compact allows the U.S. military to 
maintain presence in a critical location in the Western Pacific. In 
terms of soft power value, it offers us the ability to assure Palau and 
regional neighbors that the U.S. is committed to stability and security 
in the region. Simultaneously, it provides us the hard power option of 
serving as a base of power projection to address issues in the South 
China Sea while in close proximity to our allies in Australia, Japan, 
Philippines, and Thailand. The U.S.-Palau Compact is, by a large 
margin, the least expensive of the three Compact agreements. If the 
2010 U.S.-Palau Compact Review Agreement is authorized by Congress, it 
will cost only a fraction of what the U.S. currently provides in direct 
assistance to the Marshall Islands and Federated States of Micronesia. 
However, despite the low cost of its Compact, Palau occupies one of the 
most advantageous strategic locations in the region, providing the U.S. 
with its greatest return on investment of all three Compacts.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. How much did we spend to field the Aegis Ashore test 
site at Pacific Missile Range Facility?
    Does it make sense to defend Hawaii from Alaska instead of using 
this site?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
    Mr. Franks. We have the Navy's new SPY-6 radar and the TPY-2 at 
Pacific Missile Range Facility. Can we use those radars to add to the 
defense of Hawaii today? Or would you rather wait several years to 
conduct environmental impact statement process and analysis of 
alternatives processes to build a brand new radar?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
    Mr. Franks. Should we evaluate the capability of the SM-3 IIA to 
defend Hawaii from North Korea and its ICBMs?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. Long-range intelligence, surveillance and 
reconnaissance (ISR) in an anti-access/area denial environment is 
critical in gathering the necessary intelligence against threats in the 
PACOM strategic environment. I understand that USPACOM has assessed the 
current capabilities and needs to support Pacific theater exercises and 
maritime operations and has identified ISR gaps which need to be 
addressed.
    1. What are PACOM's long-range surveillance capability needs in the 
Pacific, particularly in light of China's deployment of long-range 
surface to air missile systems?
    2. Does PACOM believe that it is positioned to meet current and 
future ISR requirements in light of this threat?
    3. Are you aware of budgetary and/or authority shortfalls that are 
need to addressed in order to meet these capability needs?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. MURPHY
    Mrs. Murphy. In 2008, U.S. Pacific Command identified, and the Navy 
issued, an Urgent Operational Need Statement calling for a 
significantly upgraded offensive anti-ship weapon to keep pace with 
high-threat maritime targets. The U.S. Navy requested, and Congress has 
funded. a rapid acquisition effort to field an advanced anti-ship 
capability in 2018 through the Long Range Anti-Ship Missile (LRASM) 
program. During this acquisition timeline, however, the number of high-
threat adversary surface combatants has grown considerably, by some 
accounts in the order of roughly 6 times what it was in 2008.
    I understand that the initial requirement 8 years ago called for 
110 munitions. 1) Has the requirement for offensive anti-ship weapons 
kept pace with the increased threat? 2) Can you please characterize our 
nation's capacity to counter heavily-defended, moving maritime surface 
action groups in severely contested electronic attack environments with 
limited or no surveillance support 1) at present, and 2) over the 5-
year defense plan (FYDP)?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GALLAGHER
    Mr. Gallagher. China, and now Russia, continue to field advanced 
anti-ship missile systems to hold our Navy at risk. Just recently, an 
Admiral Grigorovich-class Russian frigate was sent to hold off the USS 
Porter and USS Ross, off from the coast of Syria. Armed with 8 advanced 
SS-N-26 Strobile missiles, the 3,000-ton ship has more capability than 
both 9,000-ton destroyers combined. Considering the increased lethality 
of peer nation frigates, what specifically ought the fleet be planning 
to field on our frigates? Are we doing enough to field a U.S. 
capability that holds enemy peer combatants at risk and to deter, 
dissuade and, if need be, defeat these threats?
    Specifically, I understand that there is an effort underway to arm 
LCS with an offensive anti-ship missile. In 2008, U.S. Pacific Command 
issued an ``Urgent Operational Need'', or UONs, calling for a 
significantly upgraded offensive anti-ship weapon to keep pace with 
high-threat maritime targets. This urgent requirement called for a 
weapon capable of striking heavily-defended, moving maritime surface 
action groups in severely contested electronic attack environments with 
limited or no surveillance support. Will this effort to outfit the LCS 
with an over-the-horizon weapons system meet the requirements PACOM 
outlined in the Urgent Operational Need Statement?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. GAETZ
    Mr. Gaetz. You have testified in the past that 80 percent of North 
Korean imports to China is coal. Because China has ceased acceptance of 
North Korean coal imports, to what extent will this impact China's 
leverage in negotiating an end to North Korea's nuclear ambitions?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
    Mr. Gaetz. To what extent will North Korean resources for nuclear 
and non-nuclear capabilities be impacted by China's prohibition of 
North Korean coal imports?
    Admiral Harris. China announced on 26 February 2017 it was 
suspending coal imports from North Korea (NK) after having reached the 
United Nations-imposed annual quota of $400 million/7.5 million tons. 
That decision is unlikely to have a significant negative near-term 
impact on Pyongyang's nuclear development and ballistic missiles 
programs. Pyongyang will continue to prioritize its strategic weapons 
programs and will likely allocate/divert funds generated from other 
sectors to ensure its strategic weapons programs research and 
development is minimally impacted. Despite China's ``enforcement'' of 
banning coal imports from NK, cross-border trade activity continue 
between the two countries. Total NK-China trade volume increased by 
approximately 37 percent ($220 million) in the first quarter of 2017 
from the same period in 2016. NK exports to China surged nearly 20 
percent in the first quarter of 2017 after China announced its decision 
to suspend coal imports from NK. NK exported approximately $500 million 
worth of goods to China, to include minerals, seafood, and manufactured 
garments to China. NK's ore exports to China also surged 270 percent in 
January and February compared with the same period in 2016. Despite the 
coal ban, NK continues to attempt to export coal to Chinese buyers 
illicitly, exploiting the lack of transparency and loose enforcement of 
sanctions. Multiple NK vessels reportedly carrying coal were previously 
identified at Chinese ports. Pyongyang will likely seek out other 
potential customers willing to purchase NK coal. Additionally, NK very 
likely will aggressively pursue alternative means to generate foreign 
currency in an effort to offset revenue losses caused by China's ban on 
NK coal imports. NK was able to unload approximately 6,300 metric tons 
of coal in Malaysia in March 2017, a month after China announced its 
coal ban. NK's overseas laborers are assessed to generate approximately 
$350 million annually, in addition to an estimated $40 million 
generated annually through its overseas information technology-related 
businesses.
    Mr. Gaetz. How will China respond to a rapidly destabilizing 
situation on the Korean peninsula? What is China's tactical response in 
relation to North Korean nuclear assets?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
    Mr. Gaetz. Given the increasingly mobile nature of North Korea's 
nuclear capabilities, how will this impact the United States need for 
enhanced capability in the missile defense realm?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BYRNE
    Mr. Byrne. Given the rising tensions with North Korea and the 
proximity of Hawaii as the closest U.S. State to the DPRK, how do you 
characterize the threat to Hawaii and our current defensive 
capabilities? You have previously cited on record your desire to 
activate the Aegis Ashore site at PMRF with the Standard Missile-3 in 
order to enhance our defense immediately; and a number of subject 
matter experts have publically shared your views. Has your opinion on 
this or the urgency surrounding the need to activate the site changed?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
    Mr. Byrne. MDA has indicated plans to develop a new discrimination 
radar (HDR-H) in order to enhance defense of Hawaii against the North 
Korean threat. Are you concerned that MDA's plan is a new development 
program, in a remote location which will not be operational until 2024 
at the earliest? While more and larger sensors are always desirable, 
based on the imminent threat, should we be more focused on a near-term 
defense solution? Would you advocate spending resources on leveraging 
the existing assets (Aegis Ashore, AN/TPY-2, THAAD) and filling the 
launchers with additional inventory or procuring the new discrimination 
radar?
    Admiral Harris. [The information is classified and retained in the 
committee files.]
    Mr. Byrne. Appreciating Hawaii's unique location relative to the 
threat and the challenges that presents from a defense perspective 
(cruise missiles, ICBMs, sub-launched threats, air threats), should a 
new radar for HI be designed as strictly a ICBM radar or should it be 
more multifunctional?
    Admiral Harris. [The information is classified and retained in the 
committee files.]

                                  [all]
                                  
                                  
                                  
</pre></body></html>
